<html>
<title> - CLEAN ENERGY JOBS, CLIMATE-RELATED POLICIES AND ECONOMIC GROWTH--STATE AND LOCAL VIEWS</title>
<body><pre>[Senate Hearing 111-1205]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1205

 CLEAN ENERGY JOBS, CLIMATE-RELATED POLICIES AND ECONOMIC GROWTH_STATE 
                            AND LOCAL VIEWS

=======================================================================

                             JOINT HEARING

                               before the

                      SUBCOMMITTEE ON GREEN JOBS 
                          AND THE NEW ECONOMY

                                and the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JULY 21, 2009

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







       Available via the World Wide Web: http://www.gpo.gov/fdsys






















                                                       S. Hrg. 111-1205

 CLEAN ENERGY JOBS, CLIMATE-RELATED POLICIES AND ECONOMIC GROWTH_STATE 
                            AND LOCAL VIEWS

=======================================================================

                             JOINT HEARING

                               before the

                      SUBCOMMITTEE ON GREEN JOBS 
                          AND THE NEW ECONOMY

                                and the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-164 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

             Subcommittee on Green Jobs and the New Economy

                   BERNARD SANDERS, Vermont, Chairman
THOMAS R. CARPER, Delaware           CHRISTOPHER S. BOND, Missouri
KIRSTEN GILLIBRAND, New York         GEORGE V. VOINOVICH, Ohio
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 21, 2009
                             
                             
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     5
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     8
Menendez, Hon. Robert, U.S. Senator from the State of New Jersey.    11
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    12
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    14
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    17
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    18
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    21
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    22
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    23
Crapo, Hon. Mike, U.S. Senator from the State of Idaho...........    24
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    26
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    26
Voinovich, Hon. George V., U.S. Senator from the State of Ohio, 
  prepared statement.............................................   370

                               WITNESSES

Ritter, Hon. Bill Jr., Governor, State of Colorado...............    28
    Prepared statement...........................................    30
    Responses to additional questions from:
        Senator Boxer............................................    34
        Senator Carper...........................................    37
        Senator Inhofe...........................................    40
Gregoire, Hon. Chris, Governor, State of Washington..............    42
    Prepared statement...........................................    44
    Responses to additional questions from:
        Senator Boxer............................................    56
        Senator Carper...........................................    59
        Senator Vitter...........................................    63
        Senator Crapo............................................    64
Hoeven, Hon. John, Governor, State of North Dakota...............    67
    Prepared statement...........................................    69
    Responses to additional questions from:
        Senator Carper...........................................    72
        Senator Inhofe...........................................    75
        Senator Vitter...........................................    76
        Senator Crapo............................................    78
Corzine, Hon. Jon S., Governor, State of New Jersey..............    79
    Prepared statement...........................................    81
    Responses to additional questions from:
        Senator Boxer............................................    90
        Senator Carper...........................................    96
        Senator Inhofe...........................................   100
    Response to an additional question from Senator Vitter.......   102
    Responses to additional questions from Senator Crapo.........   104
Kiss, Hon. Robert, Mayor, Burlington, Vermont....................   164
    Prepared statement...........................................   167
    Response to an additional question from Senator Inhofe.......   177
Euille, Hon. William D., Mayor, Alexandria, Virginia.............   179
    Prepared statement...........................................   182
    Responses to additional questions from Senator Boxer.........   277
Lowery, Hon. John, Representative, District 6, Arkansas House of 
  Representatives................................................   279
    Prepared statement...........................................   281
    Responses to additional questions from:
        Senator Inhofe...........................................   291
        Senator Vitter...........................................   292
    Response to an additional question from Senator Crapo........   294
Palmer, Hon. Douglas H., Mayor, Trenton, New Jersey..............   304
    Prepared statement...........................................   306
    Responses to additional questions from Senator Boxer.........   361

                          ADDITIONAL MATERIAL

Letter to Arkansas State Representative John Lowery, Jr., from 
  Chemtura, July 20, 2009........................................   372
Green Jobs, Ole: Is the Spanish Clean-Energy Push a Cautionary 
  Tale?, article from the Wall Street Journal, March 30, 2009....   373
Pages from U.S. House of Representatives bill H.R. 2454..........   374
 
 CLEAN ENERGY JOBS, CLIMATE-RELATED POLICIES AND ECONOMIC GROWTH--STATE 
                            AND LOCAL VIEWS

                              ----------                              


                         TUESDAY, JULY 21, 2009

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Green Jobs and the New Economy,
                                                    Washington, DC.
    The full committee, met pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Cardin, Sanders, Klobuchar, Whitehouse, Udall, Merkley, 
Voinovich, Vitter, Barrasso, Crapo, Bond, and Alexander.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The committee will come to order.
    We all welcome our distinguished panel, and of course, the 
one after.
    I am going to ask Senator Sanders to sit right next to me 
because this is really a hearing of the full committee 
organized by his subcommittee, so he is going to be chairing 
the hearing.
    The focus of today's hearing in on clean energy jobs, 
economic growth and global warming policies from a State and a 
local perspective.
    Providing incentives for clean energy is a win-win for our 
country, because it helps to address the threat of global 
warming and it builds a foundation for long-term recovery and 
long-term prosperity.
    Right now, our States, cities and counties are leading the 
way in adapting smart policies to drive the transition to a 
clean energy economy. I tell my colleagues often, if we fail to 
act, we are going to have the cities, the counties, the States 
and the regions acting.
    We already know that my State of California, the Western 
States, and the Northeastern States are acting. So we are going 
to have a number of jurisdictions acting to protect our 
children from pollution, and we if do not act it will be a 
patchwork as well as the EPA doing its job under their 
endangerment finding.
    I want to again thank our distinguished witnesses for being 
here today.
    On our first panel, we have Governor Bill Ritter from the 
State of Colorado, Governor Chris Gregoire from the State of 
Washington, Governor John Hoeven of the State of North Dakota, 
and we hope that Governor Corzine from New Jersey will join us 
shortly.
    On the second panel, we have Mayor Robert Kiss from the 
city of Burlington, Vermont; Mayor William Euille from the city 
of Alexandria, Virginia; State Representative John Lowery from 
the State of Arkansas; and Mayor Douglas Palmer from the city 
of Trenton, New Jersey.
    We are facing two historic challenges today: the current 
recession and the dangers of unchecked global warming. We have 
the opportunity to address with a single solution what will 
create millions of clean energy jobs in America, reduce our 
dependence on foreign oil, and protect our children and 
grandchildren from pollution.
    I agree with President Obama, who said, ``We can remain one 
of the world's leading importers of foreign oil, or we can make 
the investments that would allow us to become the world's 
leading exporter of renewable energy. We can let climate change 
continue to go unchecked, or we can help stop it. We can let 
the jobs of tomorrow be created abroad, or we can create those 
jobs right here in America and lay the foundation for lasting 
prosperity.''
    Legislation that provides incentives for clean energy will 
create jobs and will increase our energy efficiency. In the 
long run, it will save families and businesses money and energy 
costs, and it will drive technological innovation.
    When we provide incentives for clean energy development, we 
invest in American jobs. What kinds of jobs are needed to build 
the clean energy economy? The University of Massachusetts at 
Amherst found that clean energy industries employ construction 
workers, electricians, boilermakers, mechanics, plant 
operators, farmers, engineers, scientists and teachers.
    My State of California is a national leader in clean energy 
job creation. A June 2009 Pugh Charitable Trust report found 
that more than 10,000 new clean energy businesses were launched 
in California from 1998 to 2007. During this period, clean 
energy investments created more than 125,000 jobs and generated 
jobs faster than the State's economy as a whole.
    We all know that the recession has taken a great toll on my 
State and on most States. However, this is our bright spot in 
our State's economy.
    I look forward to today's testimony from State and local 
officials who are implementing innovative policies to help 
build a foundation for the clean energy economy.
    So, at this time, I am going to call on my friend, the 
Ranking Member, Senator James Inhofe, I am going to hand the 
gavel over to Senator Sanders and stay as long as I can.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    As a former Mayor, I always enjoy these hearings where you 
have people coming from the, well, I often say to my friends 
back home, I know what a hard job it is; I used to be a Mayor. 
If you are a Mayor or a Governor, there is no hiding place like 
there is here in Washington.
    States differ in many respects as you will hear in the 
different perspectives today. As I have stated before, cap-and-
trade benefits the coasts at the expense of the heartland. Cap-
and-trade divides rather than unites America behind a sensible, 
workable energy policy.
    This fact is clear in the testimony of Arkansas State 
Representative John Lowery, who is Democrat and will be on the 
second panel. When it comes to Waxman-Markey, Representative 
Lowery is clear. Unfortunately, he said, this bill will 
devastate my region. It will kill jobs, harm our school system, 
throw back our economic progress gained the last few years, and 
impose a disproportionate burden on Arkansans.
    Representative Lowery also speaks eloquently about a way of 
life that would perish under cap-and-trade. He is referring to 
life in Arkansas and rural America. Cap-and-trade supporters 
see rural America as wasteful, environmentally backward. They 
say they see those in rural America as mere contingencies in 
the battle to save the planet. But these are real people with 
real jobs and real families. And for them, cap-and-trade will 
spell economic disaster.
    When they lose their jobs because the factory moves 
overseas, they will struggle to put food on the table. When 
they are forced to pay high prices for gasoline, groceries and 
electricity, they will, in some cases, have to choose between 
heating their homes and feeding their families.
    Last week, I would say to my good friend from Arkansas, I 
went to Mountain Home, Arkansas. There was the regional meeting 
of all of the farmers' co-ops. They stated publicly that they 
have more to lose than anyone else, the farmers of America.
    The debate over cap-and-trade is not partisan. It is 
regional. I can tell you, when it comes to energy policy, 
Democrats in the Midwest and the South think differently than 
Speaker Pelosi and Henry Waxman. On the one hand, the policy of 
the coasts is to ration energy and make it more expensive 
through regulations and mandates. On the other hand, the policy 
of the heartland is to increase domestic energy supplies 
including wind, solar, geothermal, as well as oil, gas, nuclear 
and coal to make energy cleaner, more affordable and more 
abundant.
    You know, if we did just what I mentioned up here, really 
exploited that, we would end our dependence on the Middle East 
for our ability to run this machine called America.
    In our part of the world, we invite new energy development, 
whatever its form, because we know it creates jobs and expands 
our economy. This is the policy of North Dakota, as Governor 
Hoeven will describe in his testimony. North Dakota is finding 
success in deploying new technologies to burn coal more cleanly 
and to drill and extract oil and gas with a minimal 
environmental footprint. North Dakota is not taxing or creating 
new layers of bureaucracy. It is developing domestic resources 
and creating jobs and energy security. Thus, it is no surprise 
that North Dakota currently has a budget surplus.
    Those in the heartland are rightly skeptical about the 
promises of green jobs in the new economy. They ask a simple 
question: what does this mean for my community and my State? 
There is nothing inherently wrong with green jobs as long as 
they do not replace existing jobs. But this is exactly what 
Speaker Pelosi and Henry Waxman are talking about. They, along 
with President Obama, want to emulate the Spanish model, which 
has been a miserable failure.
    Let us look at Spain for a minute. Now, it is true that new 
wind farms and other forms of alternate energy have created 
jobs in Spain. But a new study concludes that these jobs are 
temporary and have received $800,000 per job in subsidies while 
the wind industry jobs cost $1.4 million each. And do not 
forget that each new job entails the loss of 2.2 others.
    Just do the math. The Waxman-Markey bill will destroy far 
more jobs than it will create. In fact, the authors of the bill 
assume that it will kill jobs. When I read through it, I found 
an unemployment program that is written into the bill. In other 
words, you pass this bill, you are going to get an unemployment 
program with it because it is going to lose jobs.
    Rural America wants a different policy, one that recognizes 
the need to produce all forms of energy ranging from wind to 
clean coal. No policy that includes 1,400 pages of mandates, 
taxes and regulations will produce jobs in the energy industry.
    And by the way, there are a lot of people who agree with me 
on this. I was noticing Jim Hanson, who has been the real hero 
of the global warming people, he said cap-and-trade is a temple 
of doom. It would lock in disasters for our children and 
grandchildren. Why do people continue to worship a disastrous 
approach, and on, and on, and on.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    As a former Mayor, I have a unique appreciation for this 
hearing. Whether a Mayor, Governor, or town councilman, whether 
Republican, Democrat, or Independent, local officials have a 
keen, first-hand understanding of their States and communities 
and the issues that affect them. I look forward to your 
testimony today.
    Because States differ in many respects, you will hear 
differing perspectives on cap-and-trade and green jobs. As I've 
stated before, cap-and-trade benefits the coasts at the expense 
of the heartland. Cap-and-trade divides rather than unites 
America behind a sensible, workable energy policy. This fact is 
clear in the testimony of Arkansas State Representative John 
Lowery, who is a Democrat.
    When it comes to Waxman-Markey, Representative Lowery is 
clear: ``Unfortunately,'' he said, ``this bill will devastate 
my region. It will kill jobs, harm our school system, throw 
back our economic progress gained the last few years, and 
imposes a disproportionate burden on Arkansans.''
    Representative Lowery also speaks eloquently about a ``way 
of life'' that would perish under cap-and-trade. He is 
referring to life in Arkansas and rural America. Cap-trade 
supporters see rural America as wasteful and environmentally 
backward. They see those in rural America as mere contingencies 
in the battle to save the planet. But these are real people 
with real jobs and real families. And for them, cap-and-trade 
will spell economic disaster.
    The debate over cap-and-trade is not partisan; it's 
regional. And I can tell you, when it comes to energy policy, 
Democrats in the Midwest and the South think differently than 
Speaker Pelosi and Henry Waxman.
    On the one hand, the policy of the coasts is to ration 
energy and make it more expensive through regulations and 
mandates.
    On the other hand, the policy of the heartland is to 
increase domestic energy supplies--including wind, solar, 
geothermal, as well as oil, gas, nuclear, and coal--to make 
energy cleaner, more affordable, more abundant, and more 
reliable. In our part of the world, we invite new energy 
development, whatever its form, because we know it creates jobs 
and expands our economies. This is the policy of North Dakota, 
as Governor Hoeven will describe in his testimony. North Dakota 
is finding success in deploying new technologies to burn coal 
more cleanly and to drill and extract oil and gas with a 
minimal environmental footprint.
    North Dakota isn't taxing or creating new layers of 
bureaucracy; it's developing domestic resources and creating 
jobs and energy security. Thus it's no surprise that North 
Dakota currently has a budget surplus.
    Those in the heartland are rightly skeptical about promises 
of green jobs and a new economy. They ask a simple question: 
what does this mean for my community and my State?
    There's nothing inherently wrong with ``green jobs,'' so 
long as they don't replace existing jobs. But this is exactly 
what Speaker Pelosi and Henry Waxman are talking about. They, 
along with President Obama, want to emulate the Spanish model, 
which has been a failure.
    So let's look at Spain for a minute. Now it's true that new 
wind farms and other forms of alternative energy have created 
jobs in Spain. Yet a recent study by Dr. Gabriel Calzada of the 
Universidad Rey Juan Carlos calculates that the programs 
creating those jobs destroyed nearly 110,500 jobs elsewhere in 
the economy--or 2.2 jobs destroyed for every ``green job'' 
created.
    The study also concludes that these jobs are temporary--in 
fact, only 1 out of 10 jobs has been created for actual 
operation and maintenance of new plants. And the authors 
conclude that the costs of creating green jobs ``do not appear 
to be unique to Spain's approach but instead are largely 
inherent in schemes to promote renewable energy sources.''
    This math just doesn't add up. The Waxman-Markey bill will 
destroy far more jobs than it will create. In fact, the authors 
of the bill assume that it will kill jobs. When I read through 
it, I found an unemployment insurance program designed 
specifically for workers who lose their jobs because of Waxman-
Markey. It also includes Federal assistance for job relocation 
and job searching.
    Rural America wants a different policy, one that recognizes 
the need to produce all forms of energy, ranging from wind to 
clean coal. No policy that includes 1,400 pages of mandates, 
taxes, and regulations will produce jobs or energy. And any 
such policy will threaten the rural way of life. We must defeat 
this bill or anything like it and pass a common sense energy 
policy for America.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders [presiding]. Thank you, Senator Inhofe.
    Let me begin by thanking Senator Boxer for the leadership 
that she has shown for so many years on environmental issues, 
on the crisis in global warming and on job creation, the 
creation of green jobs. Thank you, Senator.
    And let me, as a former Mayor of Burlington, Vermont, let 
me welcome our guests. I think we understand that one of the 
advantages of our Federalist form of government is that a lot 
of great ideas are taking place at the local level, they are 
taking place at the State level, and in fact the function of 
this hearing is to see how we can work together, how we can 
learn from you, how you can learn from us, and how together we 
can address some of the major crises this country faces, the 
issue of energy independence.
    Does anybody here think it is a good idea that we spend 
approximately $450 billion every single year importing oil from 
abroad? I do not think there is anyone here who thinks that is 
a particularly good idea.
    Many of us, including the leading scientists in the world, 
are worried about what this planet will look like if we do not 
reverse greenhouse gas emissions and do not deal with global 
warming. And these are some of the issues that you have been 
dealing with. And more importantly, as Senator Boxer indicated, 
we are in the midst of a major recession, and we need to create 
millions of good paying jobs as we break our dependency on 
foreign oil and as we lower greenhouse gas emissions. That is 
what this hearing is about.
    It seems to me that what we need to be doing is waging an 
energy revolution, nothing less than an energy revolution. What 
that means is that we need a future in which we create millions 
of good paying jobs in areas in wind, in solar, in geothermal, 
in biomass, in mass transportation, in areas that not only cut 
back on greenhouse gas emissions, but have the side effect of 
cleaning up our country and making us a healthier Nation so 
that the kids in Vermont are not breathing particulates which 
cause asthma.
    So, we are moving in a direction for a win-win-win 
situation. Energy independence. Think about what it means to 
invest $450 billion a year in our economy, and all of the 
things that we can accomplish. Think about where we could be in 
2025, where we could be producing a quarter or more of our 
electricity from clean, sustainable energy sources.
    I see a revitalized American manufacturing base where, 
instead of importing 90 percent of the batteries used in hybrid 
vehicles, 46 percent of solar PV cells and modules, and half of 
all wind turbines used in the U.S., we can be producing these 
products right here in the United States of America.
    I see a future where, instead of creating 330 jobs to build 
yet another fossil fuel plant, we create 4,000 jobs building a 
solar thermal plant that has no carbon dioxide emissions and 
does not pollute our air and whose only fuel is endlessly 
renewed, at no cost, from the sun.
    I see a future where, by 2020, our Nation is far more 
energy efficient than it is today. In Vermont, we have recently 
seen 2 consecutive years where our electricity demand has been 
lowered, lowered thanks to our energy efficiency efforts. And 
this is the greatest investment that we can make in terms of 
energy. It costs only 3 cents for each kilowatt hour we save 
through energy efficiency, while it costs 14 cents for each 
kilowatt hour we buy from new generation, and we can put large 
numbers of people to work in terms of energy efficiency and 
weatherization.
    I see a future where, by 2020, we can do nationally what 
Vermont has been doing on a State level, making major savings 
through energy efficiency.
    By stressing efficiency, we will also create the framework 
for innovative technology development and economic growth. We 
will see companies like Cree, based in North Carolina, which 
produces LED lighting, create jobs and expand all across the 
Nation. In 2002, Cree had 893 employees. Now, they have more 
than 3,000 in a rapidly growing industry with LED light.
    I see a future where getting to work or to school or to the 
store does not have to cause pollution. There is extraordinary 
opportunity, not only in hybrid plug-ins manufactured in the 
United States, but electric vehicles as well.
    I see a future where we have reinvested in our mass 
transportation and rail systems. So that when we go to Europe, 
or Japan, or China, we do not have to say, why can we not do 
that in the United States? Why can we not have the kind of mass 
transportation, the kind of rural transportation, that this 
country desperately needs, and in the process, creates millions 
of good paying jobs?
    So, we have, right now, enormous opportunities in front of 
us. We can lead the world in cutting greenhouse gas emissions, 
we can lead the world in creating the kind of good paying jobs 
that our people desperately need, and in the process we will 
create a cleaner and healthier America.
    [The prepared statement of Senator Sanders follows:]
                  Statement of Hon. Bernard Sanders, 
                 U.S. Senator from the State of Vermont
    Let me welcome our guests to this committee today, Governors and 
Mayors and elected officials. A great deal of exciting and innovative 
work has been taking place in States and cities throughout our country 
in breaking our dependence on fossil fuel and foreign oil, in lowering 
greenhouse gas emissions, and in the process, moving us to the creation 
of millions of good paying jobs in the years to come. We are here today 
to learn from your efforts and see how Washington and States and cities 
can go forward together in transforming our energy system and our 
global environment.
              the opportunity to reinvest in american jobs
    Today, as a Nation we spend some 350-450 billion dollars a year 
importing oil from abroad--from countries like Saudi Arabia, Nigeria, 
Mexico, Russia, Venezuela, and Iraq. Think for a moment what an 
incredible impact $450 billion a year could have on our economy and job 
creation here if that money were invested in this country in 
weatherization, energy efficiency, sustainable energies like wind, 
solar, geo-thermal, bio-mass and other technologies, public 
transportation and automobiles that are far more energy efficient or 
not using fossil fuels at all.
    What we are talking about is an energy revolution--a revolution 
that leads us toward energy independence and the ability to avoid 
Mideast wars fought over oil; a revolution that not only has the 
potential to save the planet from the devastating damage being caused 
by global warming, but which will also, as a side effect, clean up our 
air and water and make us a healthier Nation. This is a big deal.
    Now in terms of green job creation let me say a few words about 
where we are today, what some other countries are doing that we can 
learn from, and the direction that we should be going in the next 5 to 
10 years.
    Today, it is estimated by the Pew Charitable Trusts that there are 
some 770,000 green jobs in America. These include a wide range of jobs 
at every level of education and for every skill set. These are jobs for 
machinists, engineers, and electricians. These are jobs for workers who 
weatherize older homes and buildings--making them far more energy 
efficient, and in the process, saving substantial sums for the 
inhabitants on their fuel bills. These are jobs for factory workers who 
are now producing the most advanced insulation material, energy 
efficient windows, and improved roofing materials. These are jobs being 
created in companies in America that build, distribute, install and 
maintain wind turbines, photovoltaic panels, solar hot water systems, 
geo-thermal heating and cooling systems, and bio-mass heating systems. 
These are jobs being created on our farms and in our forests as workers 
produce bio-fuels and use farm waste to generate electricity. These are 
good paying, domestic jobs that put people to work while turning the 
tide against global warming and pollution.
               my vision for a new american green economy
    I see a new future for this Nation where our need for energy 
independence and environmental sustainability drives our economic 
growth. While today we have hundreds of thousands of green jobs, 
tomorrow we can have millions of green jobs. According to the Pew 
Charitable Trusts, green jobs grew by 9.1 percent between 1998 and 
2007, and during the same period other jobs grew by just 3.7 percent. 
According to the Center for American Progress and Green for All, if we 
invest $150 billion per year in the public and private sectors in 
sustainable energy, we can create 1.7 million net new jobs per year. 
That is almost 2 million jobs a year--17 million new jobs over a 
decade. And although these are good paying jobs, roughly 870,000 of 
them each year would be available to workers with high school degrees 
or less. Green investments, green energy, green jobs: this is how we 
will replace our lost manufacturing jobs.
    I see a future where by 2025 we are producing a quarter or more of 
our electricity from clean, sustainable energy sources. I see a 
revitalized American manufacturing base where instead of importing 90 
percent of the batteries used in hybrid vehicles, 46 percent of solar 
PV cells and modules, and half of all wind turbines used in the U.S., 
we make these products here. In 1970, Denmark made a commitment to 
renewable energy and now gets 20 percent of its electricity from wind 
alone. In doing so, it also created a new export industry: Danish 
companies now earn billions and lead the world in wind energy. I see 
our Nation's commitment to renewable energy producing a similar influx 
of good jobs in this country. I see a future where instead of creating 
330 jobs to build yet another fossil fuel plant, we create 4,000 jobs 
building a solar thermal plant that has no carbon dioxide emissions and 
does not pollute our air--and whose only fuel is endlessly renewed, and 
no cost, sunlight.
    I see a future where by 2020 our Nation is far more energy 
efficient than it is today. In Vermont we have recently seen 2 
consecutive years where our electricity demand has been lowered thanks 
to our energy efficiency efforts. This is the greatest investment truth 
in sustainable energy: it costs only 3 cents for each kilowatt hour we 
save through energy efficiency, while it costs 14 cents for each 
kilowatt hour we buy from new generation. I see a future where States 
compete with one another to see which can be the most efficient and 
where businesses seek out efficient States in which to locate so they 
can reap the economic and environmental benefits for their businesses 
and employees. I see a future where by 2020 we can do nationally what 
Vermont has been doing on a State level--making major savings through 
energy efficiency. Efficiency can save utility customers $168 billion, 
avoid the need for 390 medium-sized coal plants, and reduce carbon 
dioxide emissions so much that it would be the same as taking 48 
million cars off the road. Efficiency.
    By stressing efficiency, we will also create the framework for 
innovative technology development and economic growth. We will see 
companies like Cree, based in North Carolina, which produces LED 
lighting, create jobs and expand all across this Nation. In 2002, Cree 
had 893 employees; now they have more than 3,000, and these workers are 
producing environmentally friendly products for a fast growing global 
marketplace.
    I see a future where getting to work, or to school, or to the store 
does not have to cause pollution. I see a future where plug-in hybrid 
vehicles and electric vehicles are commonplace, producing a fraction of 
the emissions of conventional vehicles while providing the same 
mobility for drivers. Already today, a Chinese company called Build 
Your Dreams is producing plug-in hybrids for sale in China. We need to 
see American companies producing such advanced vehicles and exporting 
that technology to other nations, instead of the other way around.
    I see a future where we have reinvested in our mass transportation 
and rail systems. For every $1 billion we invest in public 
transportation, we see 30,000 jobs created, thousands of dollars saved 
annually by individual commuters, and dramatic reductions in greenhouse 
gas emissions for each mile traveled.
    I see this future already being planned in Vermont, where our 
cities and towns are working to develop district energy systems that 
capture ``waste'' heat from power plants and use it to heat buildings. 
I see it in our efforts to power and heat our schools and public 
housing with clean technologies such as wood chips and solar hot water 
heating. I see it in the Vermont National Guard's facilities, which we 
are working to convert to solar, geothermal, and biomass powered and 
heated facilities. I hope to see these and other world changing 
innovations and common sense practices replicated throughout our 
country.
                                closing
    I am pleased to have worked with Chairman Boxer to convene this 
first hearing of the Green Jobs and New Economy Subcommittee. I look 
forward to learning what each of our witnesses is doing in their State 
or city to create green jobs and build a foundation under our vision of 
a new, green future for our Nation.

    Senator Sanders. OK. I think our next is Senator Bond.
    Senator Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman.
    Are we going to have the demonstrations through the 
testimony?
    [Laughter.]
    Senator Bond. As a former Governor, I know the pressure 
that elected officials face to create jobs and promote economic 
development. During these tough economic times, new jobs are 
needed now more than ever. At the same time, regrettably, 
carbon cap-and-trade legislation threatens to kill millions of 
jobs through higher energy costs that help our competitors in 
China.
    We are learning in this debate that green jobs are not the 
full answer. Some make a good deal of economic sense, like 
nuclear power and energy conservation efforts. Others, like 
wind and solar jobs, are not so much created as bought. Last 
week the National Black Chamber of Commerce told us how even 
after considering the gains from new green jobs, cap-and-trade 
legislation will kill approximately 2.5 million jobs.
    On Senator Sanders' committee, as the Ranking Member, I put 
out a report earlier this spring on green jobs, Yellow Light on 
Green Jobs. We found that some green jobs, especially wind and 
solar, kill existing jobs to pay for new green jobs. They pay 
low wages and require expensive taxpayer subsidies to create.
    The disturbing information comes from green jobs advocates 
themselves. A coalition of labor organizations, Teamsters, SEIU 
and the Sierra Club, found in a report entitled High Road of 
Low Road, Job Quality in New Economy, that State and local 
taxpayer subsidies of tens of thousands and dollars, and 
sometimes hundreds of thousands are dollars, per green job, 
total tens of millions of dollars spent. This means green jobs 
are not created but instead must be bought with heavy taxpayer 
subsidies.
    An example is the Vestas wind power turbine tower 
manufacturing plant in Pueblo, Colorado. State, county and 
local officials spent nearly $32 million in incentives and tax 
breaks to attract this Danish wind turbine company to build a 
new facility in Pueblo.
    This chart shows how officials gave away economic 
development funds, training funds, incentives, matching grants, 
investment tax waivers, sales tax waivers, employee tax 
credits, enterprise zone credits and healthcare tax credits. A 
grand total of $32 million attracted 450 jobs. That comes out 
to $71,000 per job.
    I understand that these are local decisions. The people of 
Pueblo think 450 jobs are worth $32 million. What I do know is 
that the citizens and taxpayers in my State do not want their 
energy taxes raised or their other jobs killed to pay for green 
jobs.
    The ironic thing is that this thing will operate in Pueblo 
next to the GCC Cement Plant, the Evraz Rocky Mountain Steel 
Mill and the Xcel Energy Coal Fired Power Plant. It is ironic 
because the drive for cap-and-trade legislation being justified 
with Vestas' green jobs will likely doom the steel, cement and 
affordable power jobs.
    High power and carbon allowance costs will make America's 
cement and steel uncompetitive and force closure of those 
plants. Emission reductions cut too fast and too deep will 
cause the closure of coal fired plants. Pueblo may well lose 
more jobs than it creates.
    Do not get me wrong. I support American green jobs. 
Expanding our affordable American clean energy sources will 
produce them.
    My State has led the Nation is biofuels from corn and soy 
beans. We are working on cellulosic fuels and fuels from 
biomass and algae. We are a center of new battery technology 
and are beginning production of all-electric delivery trucks 
and hybrid SUVs. Domestic mass production of hybrid and plug-in 
vehicles will help the environment, lower costs for consumers 
and provide good paying manufacturing work.
    Nuclear power, clean coal technology, environmentally 
friendly drilling for oil and gas off our shores, conservation 
in existing buildings and other facilities--these are American 
sources of energy that will create American jobs, keep us 
independent of our adversaries, and ensure plentiful supplies 
to keep prices lower.
    Clean energy, American energy, affordable energy, an all of 
the above strategy that does not kill jobs and raise energy 
taxes is what we need. This is the path I urge the committee, 
this Congress and America to take.
    I thank the Chair.
    [The prepared statement of Senator Bond follows:]

                Statement of Hon. Christopher S. Bond, 
                U.S. Senator from the State of Missouri

    Madam Chairman, thank you for holding this hearing on cap-
and-trade legislation and State and local green jobs.
    As a former two-term Governor of the State of Missouri, I 
know the pressure that elected officials face to create jobs 
and promote economic development. During these tough economic 
times, new jobs are needed now more than ever.
    At the same time, carbon cap-and-trade legislation 
threatens to kill millions of jobs through higher energy costs 
and help our competitors in China.
    We are learning in this debate that green jobs are not the 
answer. Last week, the National Black Chamber of Commerce told 
us how even after considering gains from new green jobs, cap-
and-trade legislation will still kill 2.5 million net jobs.
    As ranking member of the Green Jobs and the New Economy 
subcommittee, I issued a report entitled Yellow Light on Green 
Jobs that found that green jobs efforts will kill existing jobs 
to pay for new green jobs, pay low wages, and require expensive 
taxpayer subsidies to create. This disturbing information came 
from green jobs advocates themselves.
    A coalition of environmental and labor organizations 
including the Sierra Club, Teamsters, and SEIU found in a 
report entitled High Road or Low Road? Job Quality in the New 
Economy, that State and local taxpayer subsidies of tens of 
millions of dollars oftentimes produced only a few hundred 
jobs. At this rate, taxpayer green jobs subsidies cost tens of 
thousands, and sometimes hundreds of thousands of dollars, per 
green job.
    Thus, green jobs are not created but instead must be bought 
with heavy taxpayer subsidies.
    An example is the Vestas wind turbine tower manufacturing 
plant in Pueblo, Colorado. State, county and local officials 
spent nearly $32 million in incentives and tax breaks to 
attract this Danish wind turbine company to build a new 
facility in Pueblo. (From the Pueblo Chieftain)
    This chart shows how officials gave away economic 
development funds, training funds, incentives, matching grants, 
investment tax waivers, sales tax waivers, employee tax 
credits, enterprise zone credits, and health care tax credits. 
The grand total of $32 million attracted 450 jobs; that works 
out to $71,000 per job.
    I understand that these are local decisions. Perhaps the 
people of Pueblo think 450 jobs are worth $32 million. What I 
do know is that many taxpayers in Missouri do not want their 
energy taxes raised or their own jobs killed to pay for green 
jobs.
    The ironic thing is that this plant will operate in Pueblo 
next to the GCC cement plant, the Evraz Rocky Mountain Steel 
Mill, and the Excel Energy coal-fired power plant. Ironic, 
because the drive for cap-and-trade legislation that is being 
justified with the Vestas green jobs will likely doom the 
cement, steel and affordable power jobs right next door.
    High power and carbon allowance costs will make American 
cement and steel uncompetitive, likely forcing the closure of 
those plants or plants like them. Emissions reduction cuts too 
fast and too deep will force the closure of coal-fired power 
plants, to be replaced by more expensive natural gas. Pueblo 
may very well lose more jobs than created by this effort.
    Don't get me wrong. I support new American green jobs. 
Expanding our affordable, American, clean energy sources will 
produce them.
    Missouri has led the Nation in biofuels from corn and 
soybeans and is working on new cellulosic fuels from biomass 
and algae. We are a center of new battery technology and are 
producing all electric trucks and hybrid SUVs. Domestic mass 
production of hybrid and plug-in vehicles will help the 
environment, lower costs for consumers, and provide good paying 
manufacturing work.
    Nuclear power, clean coal technology, environmentally 
friendly drilling for oil and gas off our own shores--these are 
American sources of energy that will create American jobs, keep 
us independent of our adversaries and ensure plentiful supplies 
to keep prices lower.
    Clean energy, American energy, affordable energy--an all of 
the above strategy that does not kill jobs and raise energy 
taxes. This is the path I urge this committee and America to 
take.

    Senator Sanders. Thank you, Senator Bond.
    With the indulgence of the committee, if we could take a 
little bit of a break, Senator Menendez is here to introduce 
Governor Corzine. He is going to have to run, so I would like 
to have Senator Menendez say a few words. Then we will come 
back to Senator Lautenberg or Senator Cardin.
    Senator Menendez.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, very much. I 
appreciate the courtesy. And thank you to you, the Chairlady of 
the full committee, and the Ranking Member.
    It is my sincere honor today to join my senior Senator from 
New Jersey in recognizing and introducing Governor Corzine to 
this hearing on clean energy and job growth.
    As Governor Corzine himself has said, a healthy economy and 
a healthy environment are inextricably linked. By leveraging 
existing industries and creating new ones, New Jersey is paving 
the way for a clean economy and a healthy one.
    The Governor's past experience in finance and as a United 
States Senator has allowed him to appreciate how important it 
was to embrace the Recovery Act and use its resources as 
quickly and effectively as possible. The Council of Economic 
Advisors has estimated that New Jersey's use of these funds 
from the Recovery Act will create or save over 100,000 jobs 
over the next 2 years.
    Many of these jobs, by virtue of the work the Governor is 
doing, are in the clean energy and environment protection 
sectors. For example, New Jersey is distributing $20 million in 
competitive grants for innovative energy efficiency and 
renewable energy projects at State facilities including public 
colleges and universities.
    The Governor has recently announced that the State will use 
Recovery Act Funds for a much-needed wetlands restoration 
project that, in turn, will create 100 new construction-related 
jobs, as well as being a good steward for the land for future 
generations of New Jerseyans.
    The Governor is also working with businesses to close the 
skill gaps in the emerging green economy. The New Jersey Green 
Job Training Partnership Program builds on existing 
partnerships between industry and educational institutions and 
offers apprenticeship opportunities for a 21st century energy 
industry. Over the past 3 years alone, nearly 2,000 New Jersey 
workers have been trained in the clean energy sector.
    I could go on and on about Governor Corzine's statewide 
Energy Efficiency Program, his Clean Energy Manufacturing Fund, 
his ground-breaking energy master plan or his continued efforts 
to finance mass transit and smart growth policies. All of these 
impressive programs will not only create jobs, but they will 
reduce greenhouse gas emissions and improve the quality of life 
for millions of New Jersey citizens.
    He is leading the State out of this deep recession by 
creating jobs, saving energy, and building foundations of a 
green energy economy that will serve New Jersey for decades. 
So, I cannot think of anyone better who will be before the 
committee to help you as you deal with this issue.
    Thank you, Mr. Chairman.
    Senator Sanders. Thank you very much, Senator Menendez.
    We will get back to regular order, Senator Cardin followed 
by Senator Alexander.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    In the interest of time, I am going to ask that my entire 
statement be put in the record and just welcome the Governors 
that are here and welcome our local officials.
    I think one thing is very clear: the United States has 
always been the leader in the development of new technology. We 
have done that in telecommunications, we have done that in 
manufacturing, and we have done it in every critical area of 
our economy. And we are doing it on energy. We have developed 
the technology. The problem is that we have allowed the jobs to 
be exported overseas because we have not had the right 
incentives in America for the creation of clean jobs here in 
our own country.
    The Lieberman-Warner bill last year, a bill that this 
committee worked on, would have created jobs here in America. I 
think one of our prime tests in moving forward with energy 
legislation and environmental legislation is not just energy 
security for America, which is critically important, we need to 
do that, it is not just the fact that we need to clean up our 
environment and be a leader internationally in bringing down 
global climate change and greenhouse gases, but we also need to 
keep jobs and create jobs in America.
    That is why, Mr. Chairman, I was so pleased that you put 
together this panel of the leaders that are in the forefront of 
dealing with the economic realities in their individual States 
and communities. They know what it is to be competitive in 
attracting jobs and expanding jobs.
    In clean energy, we have a real opportunity to give them 
additional tools from a national perspective in order for our 
States to energize job creation in America and, at the same 
time, have a clean environment and, at the same time, be energy 
secure.
    So, I am looking forward to our witnesses, and I thank them 
for being here.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Chairmen Boxer and Sanders, thank you for holding this 
hearing.
    Robust clean energy and climate legislation will transform 
the American economy. The United States has always been a world 
leader in technical innovation and production. From automobiles 
and airplanes to communication, computing and information 
technologies, all started and flourished here in the United 
States. So it comes as no surprise that clean energy production 
technologies such as wind and solar also got their start here 
in the U.S.
    The first wind turbine used to generate electricity was 
constructed in 1888 outside of Cleveland, Ohio, and small scale 
wind power was a part of rural energy production in the United 
States throughout the 20th century.
    Similarly, modern photovoltaics used to capture and 
generate power from the Sun were developed at Bell Laboratories 
and were an integral part of the NASA space program from the 
start, including the Apollo 11 lunar mission which we are 
celebrating the 40th anniversary of this week.
    However, unlike information technology or modern defense 
systems, the companies leading the way in research, development 
and production of clean energy technologies are overseas. This 
has to change, and it starts with a policy framework that 
reflects the country's desire to lead. This opportunity for 
American workers and American entrepreneurs cannot be allowed 
to pass them by.
    In May 2007 I toured BP Solar's U.S. headquarters, located 
in Frederick, Maryland, just after the company had completed a 
$25 million facility expansion. At the time, BP Solar employed 
2,000 workers at their Frederick headquarters and was planning 
a second facility expansion.
    During my visit I had the chance to meet and speak with 
dozens of Marylanders working at ``green jobs.'' The experience 
reaffirmed my commitment to the United States' leadership in 
developing renewable energy technologies.
    As was noted at last Thursday's hearing by venture 
capitalist John Doerer from KPBC, current U.S. policy stifles 
innovation and competitiveness. And my State knows firsthand 
what it means to lose good paying, skilled, green jobs in the 
energy sector to countries that are outpacing the U.S. toward 
the goal of clean energy future for the world.
    A year after breaking ground on the second expansion of 
their Frederick headquarters, BP Solar altered its plans. The 
company decided to move the manufacturing facility to Spain 
where government programs create greater incentives for 
renewable energy companies to do business. BP Solar's decision 
did not just impact projected job growth at the Frederick 
facility but was a factor in the elimination of 140 existing 
jobs at the plant.
    I would like to see those 140 jobs and many more come back 
to Maryland in a new green economy, but it is not likely to 
happen without a firm commitment to clean energy from the U.S. 
Government.
    A study conducted by the Political Economy Research 
Institute and the Center for American Progress estimates that 
investing just a little over 1 percent \1\ of the annual U.S. 
gross domestic product into clean energy technologies 
nationwide would generate 26,000 new jobs for Maryland and 
hundreds of thousands of jobs nationwide.
---------------------------------------------------------------------------
    \1\ Or $150 billion.
---------------------------------------------------------------------------
    We cannot rely on corporate altruism or the American ``free 
market,'' which under current Federal regulation heavily favors 
the fossil fuel industry, to move the American economy toward 
clean energy and green job development. There are many other 
countries around the world competing for these industries to do 
business on their soil, and they are implementing policy 
frameworks that make it much easier for clean energy companies 
to do business abroad than to do business here in America.
    Foreign government policies are not establishing lax 
environment or labor standards; rather countries like Spain, 
France, Japan and Germany have merely established robust 
renewable energy standards creating lucrative markets for 
companies to do business there. It is unfortunate that we 
import so much of our finite energy resources from abroad as it 
is, and it is unconscionable that we would do the same with 
renewable energy sources in the future.
    Given America's historical ingenuity and manufacturing 
capacity we can become the world's leading supplier of 
essential renewable energy technologies. Revamping the American 
economy for the 21st century will put us in charge of our own 
energy supplies. The Clean Energy and Green Jobs legislation we 
pass will put us on a path to energy independence, and that's a 
path to improved national security, increased GDP and increased 
job growth.
    I thank Chairmen Sanders and Boxer for holding this 
hearing.

    Senator Sanders. Thank you very much, Senator Cardin.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. I am also 
looking forward to the witnesses. I like to see Governors come 
to Washington, and thank you very much for taking time to be 
here.
    Of course, we are talking about the wisdom of Governors and 
Mayors and what a great decentralized country this is. But the 
Waxman-Markey bill starts out by denying that, by imposing on 
all the States a so-called 15 percent renewable energy 
standard, which is to tell you exactly how to make your 
electricity and by when.
    The goal is laudable. It is no carbon, zero carbon. So, in 
that spirit, I am going to be asking, when my turn comes, what 
you each think of the idea of a base load energy standard.
    Renewable energy, solar and wind, and mostly wind, is 
really part-time energy. It is only available about one-third 
of the time. Today, you cannot store it. The wind blows a lot 
at night when we have plenty of extra electricity, and solar 
during the day, which is a good peak time. But altogether, it 
is about 3 or 4 percent of all of our electricity.
    So, let us just assume that is a good idea and we double or 
triple that in the next several years, and that gets us up to 
around 10 percent. Since the United States uses 25 percent of 
all of the electricity in the world, where are we going to get 
the rest of it? I would assume that we would want that also to 
be zero-carbon electricity, as much as possible.
    If it is a good idea for those of us in Washington to tell 
you that you have got to make, say, 15 percent of your 
electricity from zero-carbon renewable energies, which are very 
narrowly defined, why is it not a good idea for us to tell you 
that you need to make 20 percent of your electricity from zero-
carbon base load electricity?
    Now, that could be anything, but it probably would be 
mostly nuclear. The Senator from Vermont talked about how clean 
his State was, and I congratulate him for that. I believe it is 
the No. 1 State in terms of low carbon emissions. It also the 
No. 1 State in terms of the amount of power it gets from 
nuclear energy, about 75 percent.
    Sometimes we forget that nuclear energy produces 20 percent 
of our electricity but 70 percent of our carbon-free 
electricity. Conveniently, nuclear is excluded from the 
renewable energy standard. Nuclear, of course, is a base load. 
That is a most-of-the-time electricity. Those plants generally 
operate at 90 percent, while solar and wind is operating at a 
third.
    So, let us grant that it is a good idea to require you, 
from Washington, to make 15 percent of your electricity from 
solar and wind, etc. But let us say why is it not also a good 
idea to go to base load.
    My argument is some like nuclear, some do not. Some like 
wind, I do not. In the Southeast, it does not work because the 
wind does not blow. A policy such as the current renewable 
standard that is proposed has the effect of requiring an area 
like the TVA region, which has the only wind farm in the 
Southeastern United States and which operates only about 19 
percent of the time, it has the practical effect of forcing us 
to buy wind from other parts of the country when we would 
rather be spending the money on conservation, on cleaning up 
our coal plants, and on carbon-free nuclear power.
    Let us give States some choices. Or maybe fewer choices. 
Let us just say we are wise enough to require you to have a 
renewable zero-carbon standard for wind and solar; let us do it 
for base load, too. Nuclear would qualify. I do not know if 
hydro would qualify. You could build new reservoirs. That would 
work. Or you could use biomass. That is what they keep telling 
us we can do in the Southeast, although it would take about a 
forest the size of Florida and Georgia to produce enough 
electricity to equal 20 percent of the U.S. consumption on 
nuclear.
    And on the question of jobs, California is proud of its 
growth in renewable energy. But I would like to place in the 
record a report from the News section, not the Editorial 
section, of the Wall Street Journal, which says that California 
officials are beginning to worry that the State's focus on 
transitioning to renewable energy sources could lead to power 
shortages in the near term. California's utilities are 
barreling ahead to meet a State mandate to garner 33 percent of 
their power from renewable sources by 2020, and some officials 
are concerned this might push up electricity prices, cramp 
supplies, the State Auditor warned this week, a high risk to 
the State economy, and that California could find itself 
uncomfortably tight on power by 2011 if problems continue to 
pile up.
    I would rather have a clean energy standard that would let 
States make their own decisions about whether to have wind, 
which as I have said in our region is about like having 
hydropower in the desert. But as long as we want to have a 
narrowly defined renewable energy standard that mostly is 
devoted to wind and solar, why not a 20 percent zero-carbon 
base load energy standard to go with it?
    Thank you, Mr. Chairman.
    [The referenced article follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Senator Sanders. Thank you, Senator. Senator Lautenberg 
followed by Senator Barrasso.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    I was pleased to hear from my colleague in the Senate, Bob 
Menendez, who has been a fighter for a long time to improve 
environmental conditions. And I am delighted to see Governor 
Corzine here. We used to know Jon Corzine as Senator Corzine 
and saw him establish a record there fighting for a cleaner 
environment. We are pleased to see Governor Corzine here and to 
hear his views on things.
    It has been our State's luck to have Jon Corzine as 
Governor, and it has been his hard work and the smart decisions 
of people in New Jersey that have made our State a leader in 
clean energy and a model for others to follow.
    It was New Jersey, for example, that worked with California 
and won the right to regulate greenhouse gas emissions from 
vehicles. It was New Jersey, led by Governor Corzine, which 
passed a law to reduce greenhouse gas emissions 80 percent by 
2050 within our State. It was New Jersey that enacted one of 
the most aggressive renewable electricity standards in the 
country. And as a result, more than 2,000 clean energy 
companies now call New Jersey home, employing over 25,000 
people.
    Our State is setting a pace. But in the race to build a 
clean energy economy and the millions of clean energy jobs that 
come with it, our Nation is dangerously close to falling 
behind.
    We are all warned that China is the world's largest 
exporter of the materials needed to build solar panels and 
exports 95 percent of its goods to Europe and the United 
States. We have got to wake up and move the ball. Stop the woe 
be unto us, and get on with doing the job, making the 
investments.
    You know, China is building wind farms that can generate as 
much as 20,000 megawatts of electricity. But, by the way, China 
now has surpassed the United States in the emission of 
greenhouse gases. So, we can improve China's position by 
establishing a leadership role for America. It is time for 
Congress to get our country back up to speed.
    Last month, the House of Representatives passed a landmark 
bill that would fundamentally change how America uses energy 
and fights global warming. The world's eyes are now on this 
body of the Senate, and especially on our committee, to pass a 
bill to move our country away from dirty, unstable sources of 
energy and toward clean, sustainable and efficient ones.
    But we cannot accomplish our clean energy goals relying 
only on the technology we have today. We need to be building 
the technology that we need for tomorrow. We have to make the 
investments in research and development. That creates jobs in 
the short term and gives our country the tools to compete in 
the long term.
    New Jersey is home to some of the most prestigious 
companies that do some of the most important research in the 
world. Johnson & Johnson, for instance, spends about 12 percent 
of its revenue on research and development. But the legislation 
that passed the House devotes only 1.5 percent of allowances to 
research and development. So, we have got to increase this 
money and make sure our technology matches our policies.
    I want to say this. We heard, and I think it is a 
legitimate concern, that farmers have the most to lose if we 
impose these costs and these rules to clean up the environment. 
I disagree. I think families across America have the most to 
lose. I think those families who have children and 
grandchildren yet to grow up have the most to lose. Because we 
know that there are more respiratory diseases growing at a 
rapid pace, asthma in particular.
    And we also know other things. We also know that it is not 
just conventional farming, but it is the farm that feeds the 
fish in our world, as we see coral dying, and as we see less 
opportunity for nutritional development of fish and marine 
life.
    So, we have all got a price to pay here. The question is, 
are we going to continue with our heads buried in the sand, 
complaining about what the costs might be, instead of having 
the vision that people took when they went to the Moon as we 
just celebrated? Are we going to step up to the plate and say, 
no, America leads, American does not, and America does not just 
say no.
    Thank you very much, Mr. Chairman.
    Senator Sanders. Thank you very much.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    I am very concerned about preserving and creating jobs in 
America and especially in my own State of Wyoming, green jobs 
as well as red, white and blue jobs. Unfortunately, decisions 
are being made in Washington that threaten that.
    On Friday last week, Vice President Biden's Chief of Staff 
was quoted in the Washington Post defending the President's 
$787 billion economic stimulus proposal by saying, ``The point 
of these programs on the jobs front is to cushion the blow.''
    Now, this statement ignores the fact that the President's 
bill was supposed to create or save 3.5 million jobs and keep 
unemployment no higher than 8 percent. The Administration 
promised immediate results, immediate, but that has not turned 
out to be as the Administration expected.
    Since the economic stimulus package was signed into law 
over 5 months ago, 2 million American jobs have been lost. 
Unemployment rates have soared to above 9.5 percent, all of 
this occurring after the passage of the $787 billion stimulus 
proposal.
    Vice President Biden has stated that the Administration 
misread the economy. The President's stimulus package did not 
cushion the economic blow for working families. It has 
intensified it. It intensified it by putting America deeper 
into debt and by not stopping the rising unemployment. The Vice 
President stated just last week that we have to spend money to 
keep from going bankrupt. It made all the news shows, and 
especially the comedy shows.
    This is the type of economic thinking that has led to the 
apparent failure of the President's stimulus package. In 
yesterday's Washington Post editorial page, an editorial by 
Robert Samuelson, The Squandered Stimulus, said the program 
crafted by Obama and the Democrat Congress was not engineered 
to maximize its economic impact. It was mostly a political 
exercise designed to claim credit for any recovery, shower 
benefits on favored constituencies, and signal support for 
fashionable causes.
    Now the Administration and the majority in Congress are 
saying that the Waxman-Markey bill is a jobs bill. This is 
despite the fact that this so-called jobs package includes 
language, as Senator Inhofe said, to subsidize and retrain 
workers who lose their jobs because of the bill. The authors of 
this bill and this Administration will deal another blow to the 
American taxpayer. This means taking away more jobs and then 
subsidizing a few green jobs in their place. To the folks back 
home beyond the Beltway, this is Alice in Wonderland economics.
    Let me give you an example of the blow that is being felt 
by Waxman-Markey to American jobs. In Wyoming, and in 
California, here is the American soda ash industry. Now, these 
are the only two States in America that produce soda ash. It 
employs thousands of Americans, hardworking men and women who 
make the basic necessary ingredient for glass, fiberglass, 
toothpaste and baking soda.
    Under this bill, there is no protection for this industry. 
The result will be that higher energy costs and new regulations 
will drive the soda ash manufacturers from Wyoming and 
California overseas to China.
    Now, the China soda ash industry is highly energy intensive 
and polluting, consuming over 220 trillion BTUs of energy and 
emitting nearly 20 million tons of carbon dioxide on an annual 
basis. That is because they use synthetic production methods.
    This is going to cause irreparable environmental damage by 
moving the businesses from America to China. Under Waxman-
Markey, thousands of hardworking Americans will lose their jobs 
in the soda ash industry in Wyoming and in California. They 
will lose their jobs even though they produce a natural, more 
environmentally respectful product than the Chinese. These jobs 
will shift overseas to China and spur their economic growth, 
not ours.
    The Chinese will then sell back to the United States a 
synthetic product with a much higher environmental cost. The 
synthetic product is what will go into the glass and fiberglass 
that this country will use to build the green homes and 
buildings that are being constructed in the future.
    So, according to the Administration, if Waxman-Markey 
passes and the soda ash industry go overseas, Americans will 
pay additional tariffs on the synthetic soda ash that we now 
will have to buy, all of it, from the Chinese. Only in 
Washington can we develop these thoughtless policies.
    This is not an isolated case. So, I ask each of my 
colleagues to examine the real impacts to the jobs in each of 
your States as a result of this bill. Please make sure the so-
called green jobs that are being promised by this bill are not 
being created in China at the expense of each of our 
constituents' jobs.
    It does not have to be that way. We need an all of the 
above energy strategy that includes nuclear, clean coal, 
natural gas, hydro, wind, solar, all the renewables. We need it 
all. We need to make America's energy as clean as we can, as 
fast as we can, without raising prices on American businesses 
or families.
    Thank you very much, Mr. Chairman.
    Senator Sanders. Thank you.
    Senator Bennet has dropped in to introduce Governor Ritter.
    Senator Bennet.
    Senator Bennet. Thank you, Senator.
    I would like to thank the Chairman and the Ranking Member 
for holding this important hearing. It is fascinating to have 
the chance to listen to the work that you are all doing and for 
extending to me the courtesy of introducing our Governor, Bill 
Ritter, who has been Colorado's Chief Executive since 2007.
    Prior to assuming the Governorship, Governor Ritter was 
Denver's District Attorney, earning a reputation as one of the 
country's most effective prosecutors. He was educated as 
Colorado State University and the University of Colorado. 
Before becoming District Attorney, he and his wife, Jeannie, 
lived in Africa for 3 years serving as missionaries, educating 
people in Zambia about nutrition and health care. Bill Ritter's 
very life and work experience make him a tremendous asset for 
our State.
    Colorado's Governor Ritter is sure to tell you in detail 
that it is a State that is blessed with an abundant array of 
energy resources, both traditional, like our abundant supply of 
clean burning natural gas, and renewables, namely our rich wind 
and solar resources. There is perhaps no one more qualified to 
talk about how Colorado is harnessing this vast supply of 
resources, thereby creating thousands of clean energy jobs and 
attracting substantial new investment in our State than 
Governor Ritter.
    As Governor, he has led the Nation in spearheading 
initiatives to transition our economy toward clean, renewable 
energy. For example, in 2007, he signed legislation into law 
that spurred our State's large investor-owned utilities to 
procure at least 20 percent of their electricity from renewable 
sources by the year 2020.
    Initiatives like these contributed to a recent Pugh 
Charitable Trust finding that clean energy job growth in 
Colorado is more than double--double--that of normal job 
growth, 18.2 percent as opposed 8.2 percent, respectively. 
Furthermore, the study found that venture capital investment in 
green technology in Colorado topped $620 million over the past 
3 years.
    These numbers are proof positive that Governor Ritter's 
leadership is cementing Colorado's place in the forefront of 
the new energy economy. Governor Bill Ritter is the sort of 
leader who can help us reach all of our important goals moving 
to this new energy economy.
    Mr. Chairman, I am pleased to introduce to the Committee 
Governor Bill Ritter.
    Senator Sanders. Not quite yet.
    [Laughter.]
    Thank you, Senator Bennet.
    Senator Udall, to be followed by Senator Voinovich.
    Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. We really are going to hear from you at some 
point, we really, really are.
    [Laughter.]
    Senator Udall. I will make it short and put my opening 
statement into the record, and thank the Governors. Christine 
Gregoire and I served as State Attorneys General. I know that 
Sheldon overlapped with you also. And it is wonderful to have 
our neighbor, Governor Ritter, here.
    I want to thank the Chairs for highlighting the fact that 
States and cities are really laying the groundwork out there on 
the clean energy economy. I think that it is terrific, what you 
are doing. And I want to highlight a couple of the facts.
    No fewer than 23 of 50 States have already agreed to 
regional cap-and-trade programs to reduce greenhouse gases. 
Three regional gas-and-trade programs cover one-half of the 
U.S. population and one-third of U.S. emissions.
    Emission trading has already begun in 10 Northeastern 
States in the Regional Greenhouse Gas Initiative. New Mexico is 
a member of the Western Climate Initiative, another bi-partisan 
regional cap-and-trade program of seven States and four 
Canadian Provinces. Then we also, in the Midwest, have the 
Greenhouse Gas Accord.
    So, the States and cities, I think, are moving very 
aggressively to create this clean energy economy.
    Just to highlight a little bit about what New Mexico has 
done. On the solar front, Governor Richardson and our 
delegation are working hard to create solar jobs. We have had 
companies come from overseas and locate in New Mexico. They are 
creating jobs now, even in this very, very difficult economy.
    We are planting wind turbines around New Mexico like trees. 
We have a community college that has installed what they call 
the tallest classroom in the world, which 410-foot wind 
turbine, and those students are studying how to service and 
maintain the wind turbines. So, they are starting to educate 
people for these clean energy jobs.
    Los Alamos National Lab has developed technology for 
geothermal, and there is going to be the creation of geothermal 
jobs in New Mexico and other States. I know that both Governor 
Ritter and Governor Gregoire know every well that the forests 
have huge potential for biomass, and we are going to be 
creating jobs there with some of the older overgrowth we have 
in our forests.
    So, I think that it is clear that there are the jobs out 
there. We are getting it done. And it is great to have you here 
today to talk a little bit about that.
    Thank you very much, and I appreciate the leadership of the 
two Chairs.
    [The prepared statement of Senator Udall follows:]

                     Statement of Hon. Tom Udall, 
               U.S. Senator from the State of New Mexico

    No fewer than 23 of the 50 States have already agreed to 
regional cap-and-trade programs to reduce greenhouse gases. 
Three regional cap-and-trade programs cover half of the U.S. 
population and one-third of U.S. emissions.
    Emission trading has already begun in 10 Northeastern 
States in the Regional Greenhouse Gas Initiative. Known as 
``Reggie,'' this bi-partisan cap-and-trade program includes 
three Republican Governors: Jodi Rell of Connecticut, Jim 
Douglas of Vermont and Donald Carcieri of Rhode Island.
    New Mexico is a member of the Western Climate Initiative, 
another bi-partisan regional cap-and-trade program of 7 U.S. 
States and 4 Canadian Provinces. Republican Governors Arnold 
Schwarzenegger of California and Jim Huntsman of Utah led their 
States to become full members.
    The Midwestern Greenhouse Gas Accord is yet another bi-
partisan regional cap-and-trade program, also with 7 U.S. 
States. Republican Governor Tim Pawlenty of Minnesota is a full 
member, and Republican Governors Mitch Daniels of Indiana and 
Jim Rounds of South Dakota also signed the accord as observers.
    We should not be surprised to see such broad, bi-partisan 
momentum for cap-and-trade legislation in the States, because 
the concept has a rich, bi-partisan history.
    The bi-partisan 1990 Clean Air Act Amendments included cap-
and-trade for sulfur dioxide emissions as the key feature. The 
House voted 401 to 25, and the Senate voted 89 to 10, and that 
cap-and-trade program was enthusiastically signed into law by 
President George H.W. Bush. This cap-and-trade program 
practically eliminated acid rain within a few years at very low 
cost.
    In 2008 both parties' presidential candidates supported 
cap-and-trade in the campaign. Senator McCain and Senator 
Lieberman are the fathers of cap-and-trade legislation in the 
Senate. McCain cosponsored the first Senate greenhouse gas cap-
and-trade program in 2003, and he introduced two cap-and-trade 
bills himself in 2005. Senator John Warner, the former senior 
Senator for the Republicans in 2007, led the charge for cap-
and-trade legislation just last year.
    Cap-and-trade has bi-partisan support because it is market-
based, and it is designed to take advantage of innovation and 
the natural business instinct to cut costs. Command and control 
regulation might be more effective in the near term, but cap-
and-trade can get the same result in the long term, at lower 
cost.

    Senator Sanders. Thank you, Senator.
    Senator Vitter, followed by Senator Merkley.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman.
    I, too, want to thank all of our witnesses very much.
    I welcome a hearing on green jobs and the jobs impact of 
all of the climate change and energy policy we are considering. 
I just hope that we all bring a thorough, rigorous analysis to 
the topic, because way too often, in my opinion, as Senator 
Bond and others have mentioned, we just do not do that in 
Washington. It is fuzzy math, and it is a one-sided analysis.
    On the subject of green jobs in particular, usually it is 
an ideologically driven analysis that focuses on one side of 
the ledger only and does not look at what you have to look at, 
which is the cost of any of these jobs in terms of taxpayer 
subsidies or in terms of other jobs in the economy which are 
lost.
    There is a very important study that came out a few months 
ago from Spain. Dr. Gabriel Calzada of King Juan Carlos 
University in Madrid actually did the sort of thorough, 
rigorous analysis I am talking about, about green jobs in 
Spain. Pretty interesting results. For every 1 green job 
financed by the Spanish taxpayer, 2.2 real jobs were lost as a 
result of the same policy put in place. Nine out of 10 green 
jobs created by Spain over the past 10 years are no longer in 
existence today.
    Since 2000, Spain has spent the equivalent of $754,000 to 
create each green job including subsidies of more than $1.3 
million per wind industry job. These programs resulted in the 
destruction of nearly 113,000 jobs elsewhere in the economy. 
Finally, each green megawatt installed destroyed 5.4 jobs in 
non-energy sectors of the Spanish economy.
    So, I welcome green jobs that make sense at a reasonable 
cost. I just hope that we bring real, rigorous and thorough 
science to bear, including rigorous and thorough economic 
science as we figure out what policies make sense.
    As I said before, I do not think that is being done in much 
of this debate. When you hear claims about Draconian cap-and-
trade proposals like Waxman-Markey will cost Americans a 
postage stamp a day, that is just absolutely ludicrous on its 
face, particularly as supporters of the very policy admit in 
other venues that utility and energy costs will necessarily 
``skyrocket.'' And that is quote from President Obama on the 
campaign trail.
    So, I look forward to a real and a rigorous discussion so 
that we can focus on green jobs and other jobs that make sense 
and that we can procure in a reasonable way at a reasonable 
cost.
    Thank you, Mr. Chairman.
    Senator Sanders. Thank you.
    Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Mr. Chair. I look forward to 
hearing what the States are doing.
    Certainly, Oregon is a laboratory, invested on the market 
side with an aggressive renewable energy standard, invested on 
the production side with green energy and tax credits, invested 
on the efficiency side ranging from the highest standard in the 
country for efficient appliances to encouraging utilities to 
increase the amount dedicated to efficiency, to the most 
aggressive building codes in the United States of America for 
future buildings.
    We also have here a State Representative who is very 
involved in a program to help overcome the up front costs, 
Representative Jules Bailey, State legislator from Oregon, who 
laid out a strategy in partnership with our utilities to cover 
with low cost loans the up front costs of energy improvements 
on residential and commercial buildings so that the energy 
savings would more than pay for the costs of the up front 
installation, greatly to expand, and it is a model that 
certainly I am pursuing here at the national level.
    The result is that jobs in Oregon, green energy jobs, are 
growing seven times as fast as the rest of the economy. And we 
are addressing key strategic interests of the United States of 
America, from ending our dependence on foreign oil, to 
strengthening our economy by converting the $2 billion a day we 
spend overseas to spending it here in America creating jobs, to 
addressing the challenge of carbon dioxide in our atmosphere.
    I look forward to the work that your States are doing and 
the innovations that we can help inform the debate we are 
holding here in the U.S. Congress.
    Senator Sanders. Thank you, Senator.
    Senator Crapo.

             OPENING STATEMENT OF HON. MIKE CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman.
    I appreciate the opportunity to participate in this 
hearing, and the important issue that we are facing today 
requires all of us to focus very carefully on the details of 
how this legislation works out.
    The purpose of today's hearing is to hear from our State 
and local officials on climate-related policies and clean 
energy jobs. I would like to take just a moment to talk about 
Idaho's record as a leader in clean energy.
    Nearly 50 percent of Idaho's electricity comes from 
hydroelectric power. Idaho's energy plan aims for a total of 8 
percent non-hydro renewable electricity production by 2015. 
Development of clean energies is an important investment in 
Idaho's energy future and in job creation.
    Like Governor Ritter, I am pleased with the potential for 
wind manufacturing jobs in my State. Recently, the Department 
of Energy announced a conditional loan guaranty to expand 
Nordic Windpower's manufacturing plant in Pocatello, Idaho. In 
fact, my State ranks 13th in the Nation in wind potential and 
has tremendous potential for geothermal expansion as well. 
Nearly 100 megawatts of geothermal and biomass landfill gas 
plants are planned on behalf of Idaho customers through 2015.
    I am also looking to hear more from Governor Corzine and 
Governor Gregoire about ongoing algae to fuel research in their 
States. Algae has tremendous potential as a second generation 
biofuel, and I have introduced a fuel bill that would ensure 
that algae-based biofuels have the same tax treatment that 
cellulosic biofuels have today.
    That said, I am concerned that some of the avenues that are 
being explored in the name of taking us forward toward clean 
energy and job creation will actually take us backward and 
destroy jobs. I agree with a number of the comments that some 
of my colleagues have made today.
    The example of Spain has just been brought up where 
invested equivalents of $37 billion for wind, mini-hydro and 
photovoltaic energy programs has resulted in only 50,200 jobs 
which, as I said has already been indicated, totals over 
$700,000 of investment for each job. We should be careful not 
to construct a national energy policy that produces this kind 
of return on investment.
    My point here is that we should let--I think we should 
incentivize and support a broad diversity of different types of 
energy in our country. I think we all agree that we need to 
move away from such a heavy dependence on carbon-based forms of 
energy and that we need to have a broad diversity in our energy 
portfolio in our country.
    We should not, however, as a Congress, make the decision 
that we will pick the winners and losers. Instead, we should 
let research and the market and other dynamics lead us to where 
we can have the most dynamic and effective move toward a 
diversified energy policy. In that context, I echo concerns 
that will be expressed here today about the effect of this 
legislation.
    One specific example, which has been mentioned by Senator 
Alexander, is nuclear. For some reason, new nuclear power is 
not allowed to be included in this legislation in terms of 
meeting renewable energy standards. I think one of the reasons 
for that is there has been a conscious decision made that wind, 
solar and geothermal are preferred forms of energy and that we 
will direct the way that the marketplace should operate in our 
legislation, rather than letting a true market and true, 
meaningful research guide our decisions and the application of 
this policy to diversify our energy.
    One example, in terms of constructing a new nuclear plant, 
between 1,400 and 1,800 jobs per plant are created, sometimes, 
depending on the job, sometimes even 2,800 jobs during peak 
employment. Nuclear energy creates long-term jobs as well. By 
2020, U.S. demand for electricity is expected to grow by 355 
gigawatts. If only 64 gigawatts of the demand is satisfied by 
nuclear energy, between 18,000 and 32,000 permanent full-time 
jobs could be created.
    So, again, as we move forward in focusing on these issues, 
my effort is to try to find a way for us to allow true market 
forces and valid research, not guided by political decisions, 
take us to where we need to be in our energy policy.
    We do need to diversify. We do need to move away from our 
heavy dependence on petroleum. But in the meantime, we need to 
be very careful about making sure that we do not simply decide 
what the preferred forms of energy will be and that we allow 
research and true market forces help us to get to the kind of 
powerful, new, diversified energy policy that our country 
needs.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Crapo follows:]

                     Statement of Hon. Mike Crapo, 
                  U.S. Senator from the State of Idaho

    Mr. Chairman, thank you for the opportunity to share a few 
words. I would also like to thank the witnesses for being here 
with us today.
    The purpose of today's hearing is to hear from State and 
local officials on climate-related policies and clean energy 
jobs. I would like to take a few moments to talk about Idaho's 
record as a national leader in clean energy.
    Nearly 50 percent of Idaho's electricity comes from 
hydroelectricity, and Idaho's Energy Plan aims for a total of 8 
percent of non-hydro renewable electricity production by 2015. 
Development of clean energy is an important investment in 
Idaho's energy future and in job creation. Like Governor 
Ritter, I am pleased with the potential for wind manufacturing 
jobs in my State. Recently, DOE announced a conditional loan 
guarantee to expand Nordic Windpower's manufacturing plant in 
Pocatello, Idaho. In fact, my State ranks 13th in the Nation in 
wind potential and has potential for geothermal expansion as 
well. Nearly 100 MW of geothermal and biomass/landfill gas 
plants are planned on behalf of Idaho customers through 2015.
    I am also looking forward to hearing more from Governor 
Corzine and Governor Gregoire about ongoing algae-to-fuel 
research in their States. Algae has tremendous potential as a 
second generation biofuel, and I have introduced a bill that 
would ensure that algae-based biofuels have the same tax 
treatment that cellulosic biofuels currently enjoy.
    That said, I am concerned that some of the avenues that are 
being explored in the name of taking us forward toward clean 
energy and job creation will actually take us backward and 
destroy jobs. Spain, for example, has invested the equivalent 
of $37 billion for wind, mini-hydro and photovoltaic energy 
programs, resulting in only 50,200 jobs, totaling over $700,000 
per job. We should be careful not to construct a national 
energy policy that produces this kind of return on investment.
    Moreover, I would like to echo the concerns that will be 
expressed here today about Waxman-Markey's effect on refineries 
and jobs. This legislation is likely to have serious negative 
implications for fuel prices everywhere, including Idaho. The 
bill reserves only 2 percent of allowances for refineries, 
which will be responsible for 44 percent of all covered 
emissions.
    We should be looking more seriously at nuclear as an 
emission-free source of energy and job creation. For example, 
the construction of one new nuclear plant creates between 1,400 
and 1,800 jobs per plant, potentially even 2,800 jobs during 
peak employment. Nuclear energy generation creates long-term 
jobs, too. By 2020, U.S. demand for electricity is expected to 
grow by 355 gigawatts. If only 64 gigawatts of the demand is 
satisfied by nuclear energy, 18,400-32,200 permanent full-time 
jobs can be created.
    So, I would ask that as we look to the benefits of 
renewable energy like solar, wind, and geothermal, we also 
continue to look to the job creation benefits of nuclear energy 
and job retention in conventional sources of energy. After all, 
maintaining affordable energy and keeping Americans working are 
imperative to achieving the desired advances in clean 
technology and emission reductions.

    Senator Sanders. Thank you.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Well, it has been a long ordeal for our 
witnesses. So, all I will say is that we look forward to your 
practical, forward looking and optimistic voices around here. 
It will be something of a breath of fresh air, as you have 
noticed. I feel sometimes it is like scuba here. You have got 
to bring your own fresh air in with you.
    [Laughter.]
    Senator Whitehouse. I welcome you, and I particularly 
welcome Governor Gregoire, who I had the privilege of serving 
with when we were Attorneys General together. I was a new 
Attorney General, and she looked out for me, and I am very glad 
to have her here today. Welcome to the halls of denial, fear 
and partisan negativity. Thank you for being here with 
something different.
    Senator Sanders. Thank you.
    Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Senator.
    Welcome to all of the Governors. I particularly wanted to 
welcome the Governor of my neighboring State, North Dakota, 
Governor Hoeven. North Dakota is home to not just oil but also 
some developing new technologies, big wind manufacturing and 
other things. So, thank you for being here.
    Last week, we heard from a panel of experts about how China 
is moving ahead with full force toward a new energy economy. I 
was thinking this morning as I woke up and heard on the radio 
about how this is the 40th anniversary--I see our NASA kids 
back there, wave, very good--the 40th anniversary of Neil 
Armstrong and Buzz Aldrin landing on the Moon. We are engaging 
in what will be this generation's version of the space race, an 
energy race to provide the technologies that will power the 
21st century.
    But the finish line for this race will not be Neil 
Armstrong landing on the Moon. It will not be the great 
technologies that we got out of the space race, everything from 
GPS monitors to CAT scans to those little chocolate space 
sticks that my family took on camping trips in the 1970s.
    This time, the finish line will be the wind turbine 
manufacturing in North Dakota, the new car battery 
manufacturing in Youngstown, Ohio, the solar panel companies in 
Starbuck, Minnesota. The home grown energy is going to be 
everything from wind to new technology for coal to nuclear 
facilities to biofuels.
    We will not reach the finish line for another decade. But 
we know we are going to be there because we will either be 
buying the wind turbines and the car batteries from China, or 
we will be selling the wind turbines and the batteries to 
China. It is going to be our choice.
    Recently there was a quote in a Tom Friedman--a Minnesota 
native--column by Hal Harvey, the Chief Executive of Climate 
Works. And he talks about how China has already adopted the 
most aggressive energy efficiency program in the world. It has 
committed to reducing the energy intensity of its economy, 
energy use per dollar of goods produced, by 20 percent in 5 
years.
    They are doing this by implementing fuel efficiency 
standards for cars that far exceed our own and by going after 
their top thousand industries with aggressive efficiency 
targets. They have the most aggressive renewable energy 
deployment in the world for wind, solar and nuclear. They are 
already beating their targets.
    In Minnesota, I was just up in Northern Minnesota where our 
unemployment rate is 20 percent right now, and we want good 
paying jobs across our State. The iron ore workers, the workers 
to make the wind turbines, the workers to fill our barges with 
the wind turbines to go on Lake Superior, and scientists to 
develop fuel cells and new cellulosic ethanol technology.
    But one thing we know for sure. When we look at our job 
growth in our State, overall job growth is up 1.9 percent, but 
jobs related to the new energy economy are up 11.9 percent. 
Part of this is because, as a bi-partisan effort, a Republican 
Governor and a Democratic legislature adopted one of the most 
aggressive renewable portfolio standards in the country: 25 
percent by 2025, 30 percent for Xcel, our biggest energy 
company.
    We adopted that. And you can see the clear difference, just 
as Senator Bennet was mentioning when he introduced the 
Governor, in Colorado, the clear difference in the job growth 
that we have seen in these energy jobs compared to other States 
and compared to the growth overall in our job rate.
    We did it because we felt it was important, we felt it was 
this time's space race, we felt we had to get there. And we got 
it done. That is what we need to do in this country.
    So, I am dismayed by some of the, I think, unwarranted 
attacks. I agree that we need to make changes to this bill that 
came out of the House. I am the first one to say that we need 
to make some changes for the middle class and a more aggressive 
renewable portfolio standard that is more broad in what it 
includes.
    But I do think that we cannot just sit on our hands and do 
nothing. Because if we do, other countries are going to fill 
the void, other countries are going to beat us, other countries 
are going to just jump start us, and they are going to beat us 
out in every way for technology.
    We only have one-sixth of this technology when you look at 
the rest of the world. This is not what our country is all 
about. Our country is about being No. 1. And we can do it.
    Thank you very much, Governors.
    Senator Sanders. Thank you, Senator.
    Governors, thank you very much for your patience.
    Governor Ritter.

         STATEMENT OF HON. BILL RITTER, JR., GOVERNOR, 
                       STATE OF COLORADO

    Mr. Ritter. Thank you, Mr. Chairman.
    [Remarks off microphone] Governors and those on the next 
panel to be here today.
    Please enter the written version of my remarks into the 
record.
    As Congress debates energy and climate legislation, it is 
hopefully helpful for you to hear how those laws are working at 
the State and local levels. In Colorado, our new energy economy 
is creating new jobs. It is attracting new companies. And it is 
leading the way to a new energy future for America.
    It did not happen by accident. It happened through a 
concerted and aggressive effort starting in 2004 when it was 
Colorado voters who became the first voters in the country to 
adopt a renewable energy standard at the ballot box. One of 
your colleagues, Senator Mark Udall, helped lead that campaign.
    One of the first bills that I signed into law after 
becoming Governor in 2007 doubled our renewable energy 
standard. I have signed four dozen energy bills into law since 
then, laws that encourage manufacturing, laws that increase 
demand for renewable energy, laws that make them more 
affordable.
    We even passed a law that lets residents sell excess 
electricity back to their utility company, our Net Metering 
Law. I also issued Colorado's first climate action plan. We are 
greening Colorado's State government so that we can lead by 
example.
    We are diversifying our energy portfolio and doing all we 
can to increase the demand for Colorado-produced natural gas. I 
know there has not been a lot of discussion about natural gas 
this morning, but I think it is part of this new energy economy 
that I speak of.
    The job benefits are real. Vestas, one of the world's 
largest makers of wind turbines, is building four manufacturing 
plants in Colorado which will employ about 2,500 people. It is 
an over-$700 million investment. Two solar companies, Abound 
Solar and Ascent Solar, they are just examples of our new 
energy economy. But they recently opened new manufacturing 
plants in Colorado during the downturn and hired hundreds of 
new workers.
    Last month, we announced a new wind farm and 150 
construction jobs on Colorado's eastern plains. In the first 
year I was Governor, we quadrupled the amount of wind in the 
eastern plains with substantial benefit to the farmers who have 
the land where those wind turbines are located.
    Clearly the new energy economy is energizing our entire 
economy, even in the worst downturn in 75 years. While 
unemployment is just one barometer, it is important to note 
that Colorado's rate is 7.6 percent, nearly 2 points below the 
national average and lower than rates in 30 other States. It 
has been stable now for 4 months running. The new energy 
economy is certainly part of the reason we are in such 
relatively strong shape.
    What is next in Colorado? We are making sure that we 
educate students so that they can succeed in green jobs, so 
they can help lead a new wave of energy innovation and energy 
technology. We have established a P-20 Education Council and a 
Jobs Cabinet. We are strengthening job training programs and 
are giving community colleges a renewed mission in work force 
development.
    President Obama recognized Colorado's new energy economy 
can serve as a national model when he came to Denver to sign 
the Recovery Act. Secretary Chu recognized it when he came to 
Colorado to tour the National Renewable Energy Laboratory. We 
thank them for acknowledging our leadership and for working 
with Congress to accelerate the progress.
    We thank you for looking at how States and cities are 
turning energy and climate challenges into tangible economic 
opportunities.
    Colorado's new energy economy could be a model for all of 
America. Our new energy economy can be America's new energy 
economy. It must be, because our children and our grandchildren 
will produce energy differently than we do today, they will 
consume energy differently than we do today. To help prepare 
them for that future, we must hand over a world that is more 
energy secure, more environmentally secure, and more 
economically secure than it is today.
    There are, of course, the cynics and the skeptics who want 
to freeze time or even go back in time. But the world is 
marching forward. Our energy future is changing, our climate 
future is changing, and certainly our economic future is 
changing. We should not, and we cannot, get left behind. We 
must act now.
    So, I thank you again for the opportunity to present 
testimony, and I appreciate the fact that you are listening to 
Governors and local officials.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ritter follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
    Senator Sanders. Thank you, Governor.
    Governor Gregoire.

          STATEMENT OF HON. CHRIS GREGOIRE, GOVERNOR, 
                      STATE OF WASHINGTON

    Ms. Gregoire. Thank you, Mr. Chair, Madam Chair, and 
members of the committee, thank you for the opportunity to come 
before you today to talk about Washington State's view on 
energy and, particularly green jobs. I have submitted longer 
testimony for the record.
    In Washington State we believe that many of the jobs of the 
21st century economy will be related to energy. In 2006, like 
Colorado, by initiative of the people of our State, they 
affirmatively declared that their future would include a 
growing use of clean energy.
    We have had tax incentives for wind and solar energy 
projects in place since 1996. And earlier this month, we added 
State tax incentives for biomass energy, for ocean energy, for 
geothermal, for anaerobic digestion and waste heat energy.
    With these commitments, Washington State is now the fifth 
largest producer of wind power in the Nation, up from nothing 
in 2001. We are building solar power components, growing and 
refining biofuels, and making breakthroughs in tidal energy.
    Just 2 weeks ago, a company announced that it would build 
the largest solar panel energy generation plant in the United 
States in a town called Cle Elum. Interestingly enough, it was 
once a coal town.
    Our energy strategy is a job creation strategy. In 2007, 
when we adopted a set of climate change goals, we related to 
reduced greenhouse gas emissions and reduced fuel use. We also 
set a goal to triple the new of green jobs we had in our State, 
to reach 25,000 green jobs by the year 2020. We are less than 2 
years after that goal, and rather than 25,000 by 2020, we are 
today at 47,000 green jobs.
    Our green jobs are growing much faster than what we had 
predicted. These jobs range from computer software engineers 
for the smart grid to power line workers, from green building 
architects to weatherization technicians, from bioenergy 
venture capitalists to oil seed farmers. We learned that green 
jobs are not necessarily some brand new kind of job. They are 
often jobs that we all know about today, only they are getting 
the new skills for the 21st century economy, such as, for 
example, the electrician who can wire a smart home.
    In Washington State, our commitment to green jobs is 
fundamentally a commitment to high quality living wage jobs, 
and this means high skilled workers. The key to these jobs is 
innovative companies and highly skilled workers. We are doing 
our part with innovative curriculum throughout our robust 
community college system that includes examples such as Bates 
Technical College, for green construction and remodeling, 
Bellevue College certificate in green sustainable design, 
Columbia Basin College, for solar and photovoltaic design.
    I also encourage you to look at apprenticeships as a model 
for green jobs training. Apprenticeship programs have the 
industry expertise, the established networks, and the needed 
flexibility to meet the challenge of this rapidly evolving new 
industry sector. Because registered apprenticeship is 
controlled at the local level by employers and employees, 
created jointly and sustained by law and management, it is 
uniquely positioned to respond quickly to industry changes and 
technological advancements.
    We have almost doubled the number of apprenticeships in 
Washington State over the course of the last 4 years. We have 
created a pre-apprenticeship program to address dropouts from 
high school called Running Start for the Trades that is linking 
our high school students to high quality apprenticeship 
programs. We have made a commitment to our veterans returning 
from Iraq and Afghanistan, Helmets to Hardhats, training them 
in a direct way in apprenticeship work in this new technology 
and new 21st century jobs.
    I would like to mention the relationship between energy and 
climate. In effect, the actions needed to secure our energy 
future are the same as those needed to respond to the 
imperatives of climate change science. We have taken actions 
that address both, including clean energy tax incentives, 
renewable energy standards, and strong energy efficiency 
standards for buildings and appliances.
    Governors are actively charting a course for green jobs, 
making critical investments in the research and development, in 
training and in infrastructure. With the permission of the 
Chairs, I would like to submit a document to be made a part of 
the record. It is a statement of principles signed by a bi-
partisan coalition of 31 Governors from across the country.
    Our coalition calls on Congress to pass comprehensive 
energy legislation that breaks our dependence on foreign oil by 
making investments in using energy more efficiently and 
producing more clean energy here in the U.S. That is what will 
create and generate the green jobs that you are considering 
here today.
    Forbes magazine has ranked Washington State in the top five 
States to do business, the top five States as green. The two 
are inextricably linked.
    Thank you for your time today, and I look forward to your 
questions.
    [The prepared statement of Ms. Gregoire follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Sanders. Thank you, Governor.
    Governor Hoeven.

           STATEMENT OF HON. JOHN HOEVEN, GOVERNOR, 
                     STATE OF NORTH DAKOTA

    Mr. Hoeven. Thank you, Madam Chairman, also Chairman 
Sanders and Ranking Member Inhofe, for inviting me to be with 
you today.
    Our Nation is facing one of the worst economic downturns in 
decades. In North Dakota, we have a budget surplus, but we are 
not immune from the national recession. Certainly our continued 
health, as well as the Nation's continued economic health for 
the future, depends on the right kind of energy policy. The 
Waxman-Markey legislation is not the right kind of energy 
policy.
    As a Nation, we must continue to develop all our energy 
resources, and we must do so with good environmental 
stewardship. We can do that with a comprehensive energy plan 
that promotes all of our energy resources.
    There are a number of problems with Waxman-Markey. I am 
going to enumerate some of them, although not all of them.
    First, the technology to reduce emissions from coal plants 
is still in the developmental stage. While there are projects 
underway to capture carbon and store carbon, we are still in 
that development process. Instead of penalizing companies, we 
need to foster the research needed to find more efficient ways 
to create, transport and store energy.
    The reality is that this legislation does penalize, rather 
than reward, the technological advances that are being made by 
companies like Basin Electric Power Cooperative in North 
Dakota. These companies and others have taken preemptive action 
to reduce their emissions, but these efforts will not be 
considered in the allowance allocations formula. This penalty 
also applies to other utility companies in North Dakota and 
other places that have taken the initiatives to invest in 
renewable resources.
    Also, this legislation will potentially increase greenhouse 
gases when industries overseas increase production because 
companies here cannot compete due to higher costs.
    This bill will force companies that want to capture and 
sequester CO<INF>2</INF> to pay twice--once when they pay the 
carbon tax and again when they pay for the technology to 
capture and sequester CO<INF>2</INF>. And that, ultimately, 
means a tax on consumers at a time when our economy is 
struggling.
    Instead of Waxman-Markey or similar legislation, Congress 
needs to implement a comprehensive energy policy that will 
incentivize industry to develop all of our energy resources, 
both traditional and renewable energy resources.
    The current uncertainty is freezing investment of new 
technologies on the sidelines--technologies that could help our 
country produce more domestic energy in environmentally sound, 
cost-effective ways.
    I would like to give you some examples from our State. We 
have implemented an energy policy called Empower North Dakota 
to develop all of our energy resources with new technologies, 
with synergistic partnerships, and with sound environmental 
stewardship. Based on the time limit, I am going to submit my 
comments for the record but just briefly identify three 
approaches that we are undertaking.
    One is in the area of oil production. North Dakota is now 
the fifth largest oil producing State in the country. Senator, 
we just passed up Oklahoma, which has historically been a large 
oil----
    Senator Inhofe. [Talking off microphone.] We want it back.
    [Laughter.]
    Mr. Hoeven. I understand. Virtually all our wells are 
directionally drilled. That means one vertical bore, and then 
we go a mile underground in three different directions. We now 
produce as much oil from one well as formerly it would have 
taken 10 or 12 wells to tap. More energy, smaller environmental 
footprint.
    We also take coal, we convert it to synthetic natural gas, 
we capture the CO<INF>2</INF>, carbon dioxide, and we put it 
down a hole in the oil fields to bring up more oil. Again, less 
carbon dioxide emissions, more electricity, more oil.
    The third example is the biofuels. We now have ethanol 
plants that are run from the waste steam of power plants, and 
we are using the gray water, the waste water, from some of our 
communities like Fargo, North Dakota.
    These are just three examples. Understand that we are about 
better environmental stewardship. But we have got to have a 
policy that will incentivize the deployment of the technologies 
to do this.
    That is the approach we need to take. That is the kind of 
energy policy we need from the Federal Government in order to 
move forward.
    Thank you for the opportunity to be here. I appreciate it.
    [The prepared statement of Mr. Hoeven follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Senator Sanders. Thank you, Governor.
    Governor Corzine.

          STATEMENT OF HON. JON S. CORZINE, GOVERNOR, 
                      STATE OF NEW JERSEY

    Mr. Corzine. Thank you, Mr. Chairman and Madam Chairwoman. 
It is great to be back with all of you, the Ranking Member and 
others.
    This whole topic of climate change, energy and green jobs 
is at the heart of economic policy of many of the States, and 
certainly in the State of New Jersey.
    In partnership with President Obama and the leadership of 
this committee and others in Congress, and through the efforts 
of State and local governments across the country, we are in 
the midst of a real revolution right in front of our very eyes. 
It is happening. It is positive. It is creating jobs. It is 
addressing many of our challenges. We want to make it better, 
and I think that is what this debate is about.
    It is a revolution that addresses the clear and present 
challenges of climate change and its impact on our stability in 
a lot of different areas, national security, economic security 
and, obviously, environment. This revolution requires, in my 
view, transformational actions. I think you are hearing some of 
those kinds of things from my other colleagues, when we think 
about both production and consumption and certainly about 
transmission as well.
    Transformation is and will produce tens of thousands of 
jobs. It already has in New Jersey. You heard Senator 
Lautenberg talk about the 25,000 jobs and 2,000 companies that 
have been framed up in this decade in New Jersey. I actually 
think we have larger numbers than that in our calculations. But 
there is a substantial amount taking place. New skills are 
being established every day, training programs in our community 
colleges, as we have heard from others. There is a lot going 
on, and it is important at this time of recession.
    Rising energy demand, peak level peak loads, price 
volatility, rising prices, greenhouse gas emissions, all 
require a comprehensive approach. That is what we are doing in 
New Jersey, and I am proud of our efforts there. Let me 
outline, briefly, some of our approaches. Again, there is more 
complete information on those approaches included in the 
record.
    First, I think the fundamental necessity which is part of 
this whole discussion is that you need mandated, measurable and 
achievable objectives for change. Many of us talked about the 
setting of these objectives: 20 percent reductions in 
greenhouse gases by 2020 and 80 percent by 2050. We have set 
those in stone, as have many other places, reduction of energy 
consumption by 20 percent for the State of New Jersey by 2020. 
We have set that as a mandated requirement, reducing peak 
demand by 20 percent by 2020. Playing off of some of the things 
that I heard the Senator from Tennessee talk about, that 30 
percent renewable portfolio standard, you have to have 
measurable, mandated objectives.
    We have taken aggressive steps to meet those. We are part 
of the 10 States that have implemented a cap-and-trade program 
that has effectively been implemented over the last year. It 
will continue to put pressure to reduce carbons.
    We have laid out a comprehensive energy master plan that is 
really complete in both conservation efficiency and making sure 
that our renewable standards are in place. And it is pushing 
forward with mandated efforts to get these things done.
    We have established a clean energy program which uses 
market-based techniques to establish support and grant making 
the possibilities, both for consumers and business, and making 
sure that we are implementing efficiency standards. We are 
seeing the product of that. A lot of those 2,000 companies that 
I mentioned are getting support in establishing their business 
plans and moving forward.
    And I would say in a fourth area, we are making substantial 
investments in mass transit and lowering our carbon standards 
by joining with California to make sure that we are not putting 
more carbon into the air through the use of cars, particularly 
in the most densely populated States in the Nation.
    So, we have substantial results in New Jersey. We have the 
most solar panels installed in the country other than in the 
State of California. We have had a 100 percent increase in the 
last 3 years in that. We have added energy efficiencies, and we 
are moving in all areas of weatherization, solar installation, 
cogeneration, smart grid. All of these areas come together with 
those other policies.
    I congratulate Congress on taking action to move this 
forward in a national format as opposed to regional formats. 
So, I hope you will move forward and the Governors have a lot 
to add.
    Thank you.
    [The prepared statement of Mr. Corzine follows:]
    
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
     
    Senator Sanders. Thank you very much, Governor.
    Let us begin the questioning.
    Senator Boxer.
    Senator Boxer. Thank you, panel, all of you, for your 
positive contribution.
    Week after week, we come here. We have had so many dozens 
of hearings on this. Essentially, what is happening is, we can 
predict that the Democrats are anxious to move forward on a 
climate change bill, and the Republicans are predicting doom 
and gloom. It is just the way it is. Just listen to both sides, 
and decide who you believe.
    I thought today that the surest way to kill the American 
dream is to foster fear and doom and gloom. I think back. What 
if, when our grandmas and grandpas were sleeping on the streets 
before Social Security, everybody said well, we just cannot do 
anything about it, just walk away? And I thought about it when 
our rivers were on fire, and people said we have got to do 
something about the pollution. And when our, you know, 
endangered species were just going to become extinct. I think 
this is one of those moments.
    Now, I also have to say, my colleagues have brought up the 
Spanish report. It has been debunked, the one that says there 
will be disaster if they move forward. I would like to place in 
the record the response from the Governor of Spain pointing out 
the flaws in the study, as well as the fact that the study's 
author was a Senior Fellow at an Exxon-funded institute. I 
think those things are important, because we want impartial 
information.
    Senator Barrasso is very eloquent on bashing our President, 
time after time. If it is not our President, it is Carol 
Browner, or it is somebody else. He has the right to do it. I 
support his right. We are very good friends.
    But I have to say, it took us 8 years to get into the 
economic ditch, to get into this fiscal mess. Eight years of 
taking a surplus and turning it into a deficit. This recession 
started in 2007. And now Senator Barrasso has declared the 
stimulus a failure when less than 10 percent of it has been 
given out.
    I would ask unanimous consent to place in the record some 
examples. Here is one from Idaho of where the stimulus has 
gone. Nordic Windpower received $16 million through the DOE, 
and the company will hire 100 workers. Minnesota, Minnesota's 
Low Income Weatherization Program is getting $131 million, 13 
times what it usually gets. It is going to put people to work. 
There are many examples in California, Nebraska, in Arizona 
solar companies are getting funded, Montana, and it goes on, 
West Virginia, Massachusetts, and on and on. So, we will put 
those in the record. Things are happening, and you cannot erase 
8 years of problems in 4 months.
    What I would also like to do is place in the record the 
soda ash issue which my good friend brought up. The fact is it 
was addressed in the Waxman-Markey bill, and they say the House 
recognizes that soda ash mining is very energy intensive and 
they give them allowances. And that is taken care of.
    I also want to place in the record a very important report 
on kids' lower IQ scores linked to prenatal pollution. Now, 
this shows that the kind of pollution that our kids are facing 
in some of our cities today and areas where there are heavy 
industry is having the same impact as lead had on our kids. So, 
we need to move forward to protect our kids from pollution. And 
that is what we are trying to do.
    [The referenced documents follow:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Boxer. Governor Gregoire, I have a question for 
you. The Western Governors' Association passed a resolution 
that said ``Appropriate actions are needed to reduce greenhouse 
gas emissions. Many of these actions could create significant 
economic benefit for the West as the United States moves toward 
new energy sources.'' They urge the Federal Government to act 
decisively to create a national policy to reduce greenhouse gas 
emissions and to recognize and encourage State action in any 
national market-based emission reduction policy.
    How important are these Federal policies for promoting job 
growth?
    Ms. Gregoire. Madam Chair, the Western Governors' 
Association was united this summer in the policy that you just 
described, and we are very diverse section of the country. We 
are agriculture, we are aerospace, we are your State, and very 
clearly one of the main impetuses behind it was the fact that, 
if we can have a national standard, national policy on energy, 
we know that we can get the capital investment.
    My State stands as an example. With a minor tax incentive, 
we are now the fifth largest producer of wind power in the 
country. But they will not continue to invest unless and until 
they see the Congress setting a standard for America that 
allows them to have predictability and sustainability for them 
to invest their capital and invest in these new companies and 
new technologies that will create green collar jobs.
    It is that, in part, which led all of us to say we need 
that policy. But it is also the impact that we have had from 
forest fires and droughts and floods in the Western part of the 
country that has led us to say that policy ought to be the 
policy of the United States.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Governor Hoeven, are you seeing private sector interest in 
using North Dakota's significant wind resources as an engine to 
create renewable energy?
    Mr. Hoeven. Madam Chairman, no question about it. In North 
Dakota, our approach is developing all of our energy resources, 
both traditional and renewable. I would say right now we have 
in some stage of development close to 5,000 megawatts of wind 
energy, which is huge, and a huge investment. So, that is 
tremendously positive, as is the case with biofuels, both 
biodiesel and ethanol, solar, geothermal, biomass, all of those 
things, and we are promoting them very vigorously.
    But the other point that I want to make is that we are 
promoting them in partnership with the traditional sources like 
oil and gas, like the coal and new clean coal technologies, and 
finding ways not only to create more energy that is cost-
competitive, but do it with better environmental stewardship.
    So, understand that each and every source of energy has 
some drawbacks, traditional and renewable. They all have their 
drawbacks. But we have got to be careful in energy policy about 
picking winners and losers, and instead incentivize the States, 
this country, to develop all of our energy resources and do so 
in environmentally sound ways.
    Senator Sanders. Thank you very much, Governor.
    Senator Barrasso.
    Senator Barrasso. Well, thank you very much, Mr. Chairman.
    Senator Inhofe. I apologize, Mr. Chairman, I thought I 
would not be able to be here, and we have to trade. Thank you 
for your understanding, Senator Barrasso.
    Senator Barrasso. You are welcome, Senator Inhofe.
    Senator Sanders. Senator Inhofe.
    Senator Inhofe. Let me start off with Governor Hoeven. I 
understand that your State is No. 5 now, fifth in the Nation's 
oil production. Now, we will probably take that position back 
over with the recent developments in the Balkan trade. I am 
afraid you will get that back anyway.
    So, your State has the potential to contribute a lot more 
in energy security with oil and shale production. I do not know 
what kind of policies you think that we ought to adopt here. I 
know it is not this bill. Anything that you would like to 
suggest that we could do that would help you in your future 
productions?
    Mr. Hoeven. One of the keys is creating certainty. If you 
want businesses, both the utility industry as well as the 
venture capitalists and others, to make these investments in 
the new technologies that will create more energy, which is 
vitally important from a security standpoint, is vitally 
important from the standpoint of our economy, but to do it so 
that we have continued better environmental stewardship, which 
I understand we all share that concern. You have got to create 
certainty so that you can get that investment into these new 
technologies and get them deployed.
    It is one thing to talk about them over at the Department 
of Energy or in the research lab at the university. It is 
another to get these companies to invest billions, billions 
that it takes to do these things, whether it is carbon capture 
and sequestration or any of the renewable energy deployment, 
oil drilling, you name it. To make those investments, you have 
got to create a legal and regulatory framework at the Federal 
level like we have worked to do at the State level to encourage 
that investment to move this Nation forward.
    Senator Inhofe. And it is the predictability. In a minute, 
I am going to ask you about your offset statement. But I wanted 
to first of all talk to Governor Ritter for just a moment here.
    You know, you talk about expanding the use of natural gas 
into transportation. I agree with that. In fact, I have the 
legislation that would overcome some of the barriers that are 
out there right now. So, I agree with you on that.
    However, I am just really kind of wondering why you are 
here. According to the EIA, the Energy Information Agency, 
Colorado's oil shale deposits hold an estimated 1 trillion 
barrels of oil, nearly as much oil as the entire world's proven 
reserves, and over the long term that could equate to hundreds 
of billions in economic benefit to Colorado.
    Few would disagree that the passage of Waxman-Markey would 
effectively kill any future oil shale production in Colorado. 
That is a huge thing for the State of Colorado. I mean, that is 
the biggest single economic blow that you could have, in my 
opinion.
    Then you have the second one, this came out from the Food 
and Agricultural Policy Research Institute, and now we are 
talking mostly about Eastern Colorado. It released a study 
stating that a typical 1,900-acre feed grain farm would face 
$11,649 in higher energy costs by 2020, and $30,000 by 2050. 
Now, if you look at Colorado, you have average sized farms, 
about 858 acres. If you do your math, that means that the 
passage of this bill would cost your farmers somewhere about 
$5,000 a year by 2020, $14,000 a year by 2050.
    I guess I would have to ask you, with those two major 
economic factors in Colorado, do you support, are you here 
supporting Waxman-Markey today?
    Mr. Ritter. I am here by invitation, so that is----
    Senator Inhofe. Wait a minute. That might clear it up then. 
So you do not necessarily support it?
    Mr. Ritter. Here is what I support. I support a national 
energy policy that is married to a national climate policy, 
which gets at these goals that we have for greenhouse gas 
reductions. I believe that if you do that, there will be some 
vehicle that may not look exactly like Waxman-Markey, 
particularly after the Senate finishes its work, but I very 
much support climate legislation that is joined with a national 
energy policy to get us to the greenhouse gas emission 
reduction goals that are set for 2050.
    Senator Inhofe. So you support the goals. All right. That 
is fine.
    Governor Hoeven, the thing I was going to bring up is, 
there is a lot of discussion when you talk about your offset 
capability there and what you are doing, that is great. We are 
doing somewhat the same thing, although most of ours is 
marginal production. But I would suggest to you that the use of 
hydraulic fracturing is necessary in your State to be able to 
explore, to retrieve, all of these oil capabilities.
    Mr. Hoeven. It is absolutely vital. You know, you mention 
some of these new formations. The oil is not connected. You 
have to go underground, and you are talking 2 miles underground 
and make a fracture in order to get the oil to flow. That is 
vitally important----
    Senator Inhofe. OK, I wanted to get that into the record 
because there is some effort to do away from hydraulic 
fracturing, and it would be devastating.
    Thank you very much, Mr. Chairman.
    Senator Sanders. Thank you, Senator.
    Let me start off with, well, I have brief questions for all 
of the Governors.
    Governor Corzine, I think many of our colleagues here would 
be surprised to now that New Jersey is one of the leaders in 
the country in terms of producing solar energy.
    Mr. Corzine. [Microphone off.] No. 2.
    Senator Sanders. No. 2. How does it happen that your State, 
which is not in the solar belt, is not part of the Saudi Arabia 
of solar, how are you doing that?
    Mr. Corzine. [Microphone off.] Well, we have created 
markets----
    Senator Sanders. Microphone, please.
    Mr. Corzine. We have created stability in our regulatory 
environment, which Governor Hoeven talked about. We have 
created market allotment factors that allow for support of 
solar implementation by our utility companies. We have created 
programs that work in the public sector, power purchase 
agreement that allows private companies to put up the capital 
to install the equipment that then gets paid with savings over 
a period of time. We are implementing those similar kinds of 
programs in residential and business communities, and it has 
had a very powerful capacity to move in solar. We are 
implementing the same programs with offshore wind. We have 
major programs in place there.
    Senator Sanders. Thank you, and congratulations.
    Governor Gregoire, in your testimony you mentioned that 
your State set a goal in 2007 for 25,000 green jobs by 2020, 
only to discover this year that your State now has 47,000 green 
jobs. What is your vision for creating the next 100,000 green 
jobs in the State of Washington?
    Ms. Gregoire. Well, Senator, it is very clear to us that 
the incentives that we put in place for alternative energy 
sources are just beginning. As I mentioned to you, now the 
fifth largest producer of wind when we were not producing any 
in 2001. The largest silicon solar manufacturing plant in the 
United States located is in Washington State, and we are not 
known for our sunshine. And we have one of the largest 
generating plants now going in for solar in our State.
    That is just the beginning. We are now looking at biomass, 
we are looking at algae, and we are looking at all of the new 
technologies. And our community and 4-year universities are 
involved in the research and development to make that happen. 
So, we are very pleased at what we have done thus far. We think 
it is just the beginning, sir.
    Senator Sanders. Thank you.
    Governor Hoeven, let me ask you a very simple question. The 
reason we are here today is not only talking about the creation 
of jobs, but also dealing with the crisis in global warming. We 
have had some of the leading scientists in the world sitting, 
actually, exactly where you are sitting. What they have told us 
is that if this planet and the countries of the world do not 
get their act together, the future for our kids, our 
grandchildren, our great-grandchildren, is going to be very, 
very dire as the planet warms up.
    Do you believe that assessment?
    Mr. Hoeven. Well, the science shows that there is warming. 
There different opinions to what exactly is the cause of it. 
But the point I am making is, if you want to get the technology 
out there to capture and store CO<INF>2</INF>, to reduce 
CO<INF>2</INF> emissions, you need the right kind of Federal 
policy to do it. Waxman-Markey is not the----
    Senator Sanders. That was not my question. My question was 
a pretty simple one. Some of the leading scientists in the 
world tell us that global warming is a huge crisis for this 
world now and that it will only get worse. Do you agree with 
that assessment?
    Mr. Hoeven. I agree we need to address it. I think there 
are different opinions as to the direct cause----
    Senator Sanders. Well, they are all different opinions----
    Mr. Hoeven. But I do believe that we need to address it, 
and we are doing that, and I described how in my testimony.
    Senator Sanders. Thank you.
    Governor Ritter, you mentioned in your testimony that your 
State was the first to have a voter-approved renewable energy 
standard, and that was in 2004. More recently, and 
interestingly, you doubled that standard to 20 percent by 2020. 
How has this policy effected Colorado's energy future, and do 
you believe it will produce positive results for Colorado's 
electric customers?
    Mr. Ritter. I think in part the doubling of that helped us 
lure fairly significant companies to the State. Vestas has been 
talked about. I take some issue with former [unintelligible] 
about Vestas, but Vestas, I believe, made their decision 
ultimately to locate in Colorado 2,500 new jobs over $700 
million in investment because we had doubled our renewable 
energy standard.
    What I should point out is that Xcel Energy, which Senator 
Klobuchar referred to, they initially had opposed a renewable 
energy standard when it was on the ballot. When we went to 
double it for investor-owned utilities to 20 percent by 2020, 
they supported it because they found out how easy it was to get 
to the 10 percent goal that was initially set by the voters.
    Senator Sanders. Thank you very much.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate this opportunity. Thank you all for being here and 
testifying.
    I wanted to start by just responding a little bit about 
what Senator Boxer had said at the beginning of this because I 
had talked about the stimulus package. She said I had labeled 
it a failure and quoted a Washington Post article, editorial, 
that said it was squandered.
    I think, Senator Boxer, you made my point. You said that 
less than 10 percent of the money has been given out, which is 
my criticism of it. This is a failure. This was supposed to be 
timely, and temporary and targeted. And it has not done those 
things at all.
    I also heard you say, Madam Chairman, that the Democrats 
wanted to move ahead with climate change legislation and the 
Republicans just spoke gloom and doom. Yet, I have an editorial 
that I would like to introduce into the record by Senator Byron 
Dorgan, Reduce CO<INF>2</INF> Yes, Cap-and-Trade No. He said, I 
do not support the cap-and-trade plan now being debated in 
Congress. I think it is the wrong solution. I do not support 
it.
    Then, last Friday, on a television show, we had Governor 
Schweitzer of Montana. He was asked about cap-and-trade, and 
the Governor of Montana said cap-and-trade was the wrong 
approach. Schweitzer heads the Democratic Governors 
Association. Bill Maher asked him. He said, Governor, but isn't 
that the Democratic approach? He said, well, it might be some 
of the Democrats' approach.
    Governor Freudenthal from Wyoming has taken the same 
position. He has sided with me and my colleague, Mike Enzi, to 
say he does not support what is going on.
    [The referenced editorial was not received at time of 
print.]
    Senator Barrasso. So, Governor Hoeven, if we could visit 
with you. This is what your Senator has said. Can you talk a 
little bit about that and that there is bi-partisan opposition 
to the things that are going on here, especially in the Rocky 
Mountain West?
    Mr. Hoeven. Well, I think there is a real desire to move 
forward to produce more energy domestically, to deploy the 
technology that will help us do it in environmentally sound 
ways. The key is the right kind of Federal policy to do that.
    Again, I go back to the need to create certainty so that 
businesses can invest the billions of dollars it takes to do 
it. You need to create benchmarks that are reasonable and 
attainable. Then you need to create the incentives to get 
there. And you need to be careful not to pick winners and 
losers, but to develop all of our sources of energy.
    Senator Barrasso. There is something call the Western 
Climate Initiative. Is your State a member of that group?
    Mr. Hoeven. We are a member of the Western Governors. We 
are not a member of the Western Climate Initiative, as is the 
case for about half of the States that are members of the 
Western Governors' Association. A number of them are observers, 
a number of them just are not participating. Only about 7 out 
of 14 or so, I would say roughly half, are actually 
participants in WCI.
    Senator Barrasso. They are predicting economic stimulus 
from green investment and green collar jobs. Do you have some 
observations or comments about their positions and why----
    Mr. Hoeven. If you look at the statistics for the creation 
of green jobs, North Dakota is doing very well. I think we are 
growing at a rate of 9 percent or more in green jobs. The point 
is that we are also growing in traditional energy jobs, and we 
need them both, and we need them working together. And we need 
the technology to develop all of them with the environmental 
stewardship we seek. We should not be penalizing companies that 
are trying to do that very thing.
    Senator Barrasso. Governor Corzine, if I could. I am also 
on the Energy Committee, and you spent time on this side. They 
have approved legislation that expands first eminent domain 
authority in terms of overriding State objections on proposed 
transmission lines, which is what, in Wyoming, we need 
transmission lines to move the wind power to market.
    What are your thoughts on States giving this authority to 
the--of taking this authority from the States?
    Mr. Corzine. I think most States want to have a partnership 
in that effort, and I do not think the overriding of the 
ability to look at the local implications of this actually 
should be overridden. That does not mean that we do not have to 
work proactively to improve our grid, which is a tremendous 
problem.
    One of the reasons we are so supportive of offshore wind is 
that we have fewer of those problems, particularly in the 
highly, densely populated areas that are near our coastline. 
But it is not something that I think many local governments or 
State governments want to give up control of.
    Senator Barrasso. When I look at wind, Secretary Salazar 
recently testified to the Energy Committee that you need about 
138,000 acres of land to build a wind farm to replace one coal-
fired power plant. That equates to 215 square miles. And if you 
look at the Jersey coastline on-shore, you have what, 127 miles 
up and down, you would need to have the entire coast of New 
Jersey from the coastline in for over 1.33 miles of wind 
turbines just to be able to get the energy of one coal-fired 
power plant.
    Mr. Corzine. To be honest----
    Senator Barrasso. So the math kind of does not work 
sometimes.
    Mr. Corzine. Senator, the fact is that there is tremendous 
capacity on offshore wind, and it does not have to be scattered 
in the way that you are talking about. We have on the 
blueprints 3,000 megawatts in the next 5 years. That is almost 
four nuclear power plants. And it is only on four different 
wind farms.
    Senator Barrasso. Thank you, Governor. Thank you, Mr. 
Chairman.
    Senator Sanders. Senator Boxer, your name was taken in vain 
by Senator Barrasso. Would you want to respond?
    Senator Barrasso. With great respect. She is good friend.
    Senator Boxer. With great friendship. It was.
    Senator Sanders. And you will respond in friendship, I am 
sure.
    [Laughter.]
    Senator Boxer. My friend misquoted me. I said on this 
committee, the Democrats, week after week, are saying let us 
step up the plate and pass legislation, and the Republicans on 
this committee are in opposition. And you said that Senator 
Dorgan does not support cap-and-trade. I can tell you that 
several Senators on your side do and my Governor is a 
Republican.
    I just wanted to make sure that people understood it, so I 
will reiterate it. Week after week we hear the same thing in 
this committee. Democrats on this committee pushing forward 
with, what I hope is going to some excellent legislation, 
addressing the issue, which will level the playing field for 
everybody and be great for the creation of jobs and help our 
kids avoid pollution. And I thank you for the opportunity to 
respond to my good friend.
    Senator Sanders. Senator Carper, you did not make an 
opening statement. Why do you not ask the next question?
    Senator Carper. Thanks so much.
    I just want to say to our Governors, as a recovering 
Governor, welcome. It is great to see each of you. Thank you 
for joining us here on the anniversary of the birth of Senator 
Barrasso. It is his birthday today.
    The last time I did that, the room erupted into song for 
George Voinovich. I think we will try to restrain ourselves 
here today because we only have 5 minutes.
    I had the pleasure of talking with Governor Corzine early 
this year about the potential for maybe New Jersey, Delaware 
and Maryland working together on a windmill venture. We are 
planning to deploy, in 2 or 3 years, a windmill farm about 12 
miles off the coast of Rehoboth Beach, and New Jersey has far 
more ambitious goals. But I think we are the first windmill 
project to actually have a buyer. One of the utilities has 
already purchased the electricity that will be created.
    My hope is that we can find, maybe as you go forward with 
your other projects, we can find some synergies and economies 
of scale by doing a venture which would, I think, be almost as 
close to Cape May as it would be to Delaware.
    I understand that with our new Governor, Jack Markell, 
there have been some discussions with New Jersey and with 
Maryland, and I would just ask if you could give us any update 
on where we might be headed in that regard.
    Mr. Corzine. Thank you, Senator, and it is good to see you.
    We are very much working in partnership on the arrangement 
that you are talking about off of the Delaware coast. It is one 
of the four authorized, permitted projects to move forward, and 
it includes New Jersey companies as a part of the consortium 
that is building it, and we intend to compete for actually 
purchasing some of that power.
    I think this is something that we should be utilizing in 
all of the developments of offshore wind. It is quite a 
directive, and we have those discussions ongoing with the new 
administration.
    Senator Carper. Well, that is great. I am glad to hear 
that.
    I think it was Governor Gregoire, but maybe a couple of you 
used the term smart grid. Would you just talk with us about--I 
think in some places around the country, I think California 
among them, the utilities have figured out, working with the 
public service commissions, the Governors, the legislators, 
they have figured out how the utilities can make money not by 
selling more gas and electricity, but actually by selling less 
and trying to help their customers conserve and consume less.
    Could either of you, I will start with you, Governor 
Gregoire, but could you speak to us a little bit about what you 
might be doing in your State in that vein, and any lessons 
maybe for us and the rest of the country? And anything that you 
are doing with smart grid, that would be appreciated as well.
    Ms. Gregoire. Well, thank you, Senator. Let me speak to 
that. The Pacific National Laboratory in Washington State has 
been a leader in this. We put in place, along the peninsula of 
Washington State, the consumer ability to decide when and how 
much they will use by way of electricity.
    They can make their decision on their computer, whether 
they are in Europe or at home, whatever they want to do. They 
have reduced their own costs as consumers. They have saved 
money. In their report back to us, they like being in control 
and using energy when they want to use it at a rate that they 
want to use it.
    So, it has been very successful in Washington State. We are 
now looking to expand it across the State.
    Senator Carper. All right. Good. Governor Ritter.
    Mr. Ritter. We have two parts to this. One is in Boulder, 
Colorado. Xcel, our major utility, investor-owned utility, is 
building the first fully integrated smart grid in the world in 
Boulder and chose that as sort of its pilot place. But it is 
going to be, over time, 100,000 people who will be subject to 
their smart grid approach and again, deciding to let consumers 
decide how to use energy.
    As importantly, we just had a company that opened up, and 
over $30 million from a venture capital company, and they are 
building the hardware and the software for smart grid that 
allows you to be connected into your meter in a wireless 
fashion. So, we are creating jobs utilizing sort of smart grid 
technology as a manufacturing opportunity for us in Colorado.
    Senator Carper. Good. I want to ask one more quick 
question, if I could.
    In 1975, we passed the first CAFE legislation. We raised 
from 15 to 25 miles per gallon the fuel efficiency requirements 
for cars, trucks and vans. Instead of using less gasoline, we 
used about 150 percent more in the years to come.
    We raised CAFE standards in 2007. The President raised them 
again this year. If we are not careful, we may end up using 
more oil and more gas, not less, because we end up driving more 
cars, driving more miles.
    Have you all thought about this? And how what, if anything, 
we might want to do with respect to reining that in?
    Ms. Gregoire. Well, one of the things that we passed this 
past legislative session is incentives for electric cars. I 
have joined with my colleagues in Oregon and California with 
the concept that we ought to have an electric highway that goes 
from the Canadian border all the way to the southern border of 
California. We are trying to look not just at hybrids, but that 
potentially is a transitional opportunity for us to go to 
electric cars, and the consuming public has been very positive 
toward it.
    Senator Carper. All right.
    Mr. Ritter. We have a company actually manufacturing 
electric trucks in Colorado. So that is a part of it as well. 
It does not have to be confined just to automobiles alone. The 
other part of that is we are looking at how we, as a State, can 
be a leader in compressed natural gas for our own fleet and how 
we can convert parts of our fleet to compressed natural gas, 
and likewise, how we can build out an infrastructure that 
provides compressed natural gas so that heavy vehicles can 
utilize those as well.
    Senator Carper. Thank you very much. Again, thanks so much 
for being here and for your leadership.
    Senator Sanders. Senator Udall.
    Senator Udall. Thank you. Governor Gregoire, in your 
testimony, you cited the bi-partisan coalition of 31 Governors, 
including Governor Bill Richardson of New Mexico, which calls 
on Congress to pass comprehensive energy and climate change 
policy.
    In that statement, I think all of you said, ``We support 
legislation that invests in using energy more efficiently and 
producing more clean energy at home and sets a cap on 
greenhouse gases to reduce emissions level guided by science to 
avoid dangerous global warming.''
    I will note that Governor Schweitzer, I think, also signed 
that bi-partisan statement because that should be part of the 
record from what was said earlier.
    This statement was also signed by six Republican Governors, 
Governor Charlie Crist of Florida, Arnold Schwarzenegger of 
California, Jodi Rell of Connecticut, John Hunstman of Utah, 
Jim Douglas of Vermont and Donald Carcieri of Rhode Island, and 
also the Republican Governor of Puerto Rico, Luis Fortuno. 
Another one of the signers, Governor Mark Parkinson of Kansas, 
was the head of the Kansas Republican Party as recently as 
2006.
    So, you have really worked to build this bi-partisan 
coalition in Governors. My question to you is, one, 
congratulating and applauding you, but what advice would you 
give us to develop bi-partisanship here in the Senate on this 
very important issue?
    [Laughter.]
    Ms. Gregoire. Well, Senator Udall, I am very proud of the 
Governors across the country. Not only do we have bi-partisan 
support on the policy that you just articulated, but the 
Western Governors' Association, much like the National 
Association of Western Attorneys General, have also issued a 
policy just this last month at their gathering in which they 
said, we urge Congress and the President to act decisively to 
create a national policy to reduce greenhouse gas emissions.
    The third thing, the Western Common Initiative, is signed 
on by Senator Schweitzer. It is 72 percent of the economy of 
Canada and about 20 percent of the economy of the United 
States.
    This is not a partisan issue for Governors. This is a bi-
partisan issue. This is about a 21st century economy.
    Senator Udall. Thank you, and I think you set a very good 
example for us.
    Governor Ritter, New Mexico and Colorado both have very 
diverse energy resources. We produce oil, natural gas, coal, 
uranium, and we also are blessed with renewable resources like 
solar and wind.
    Now, your State is also a large producer of coal. Yet 
Colorado is taking action to reduce greenhouse emissions by 20 
percent by 2020 and achieve a 20 percent renewable electricity 
standard by the same time.
    Could you describe how Western States can achieve job 
creation and economic development by reducing greenhouse gas 
emissions, including the role of natural gas, which I think you 
mentioned in your testimony? You saw a role for natural gas, 
and I could not agree with you more. I am wondering what your 
ideas are there.
    Mr. Ritter. Well, thank you, Senator. And again, I think 
Governor Hoeven and I are not very far apart in thinking about 
how everything has to be involved in a national energy policy 
that you should not necessarily pick winners and losers.
    There are a lot of incentives that are already in play for 
traditional extractive industries, but also for the renewable 
industries. The way we have done job creation around this is by 
creating an ecosystem that starts with the research and 
development corridor in Colorado. The National Renewable Energy 
Laboratory is the backbone of that.
    But we have had a lot of other private research come in. We 
have formed a collaboration with our research institutes, and 
then out of there, out of those research institutions, are 
coming ideas that actually, if they get a bit of cap x, if they 
are capitalized, they are doing job creation.
    This abounds in solar. That idea was hatched in the CSU 
laboratory; about $15 million of Department of Energy money 
went to approve the concept, and now $150 million in venture 
capital money, and it is now 200 jobs in a downturn. And that 
is just one example. But it is because this ecosystem starts 
with research and development, a commitment to innovation, and 
then grows into venture capital money following it because they 
know they can produce solar more cheaply.
    Senator Udall. Thank you. Thank you very much. There was a 
chart that was put up about Colorado and your jobs. I would 
just ask that the Chairman, if you want to submit anything in 
addition to whatever you submitted today in light of that 
chart, I would ask that the Chairman allow you to do so.
    Senator Sanders. Without objection.
    Senator Udall. Thank you, Senator.
    Governor Hoeven, to ask you one quick question here. You 
stated that the House bill hits carbon sequestration at coal 
plants twice; they must buy allowance and pay for sequestration 
technology. My understanding of the House bill, and tell me 
what the difference is here, cap-and-trade is an incentive for 
doing sequestration. So, if you do it you do not need an 
allowance because the carbon is not emitted. You are taking 
care of it.
    The second part of the House bill devotes $60 billion, this 
is the largest amount aside from what is dedicated to 
consumers, for coal capture and sequestration. Those allowances 
are given to utilities, and also into research.
    So, I do not see how you make this argument that they are 
hit twice. In fact, there are significant provisions in there 
to encourage the industry to move to CCS.
    Mr. Hoeven. First, the funding that is in the bill for 
carbon capture and sequestration is a good thing. There are 
also some provisions in there that would help in terms of 
developing transmission. That is a good thing as well.
    But overall your problem is that you set these allowances 
at a level where you are going to force the costs of energy 
from carbon emitting sources higher, and consumers are going to 
have to pay that. CBO scored it at $175 a family. The Heritage 
Foundation scored it at about $3,000 per family.
    So, in essence, you are going to have that cost to 
consumers that these companies are going to pay in cap-and-
trade, and they are still going to have to invest the billions 
in order to put in the technology to actually capture and store 
the CO<INF>2</INF>.
    Senator Udall. Well, the bill also has a major amount of 
the allowances going back to consumers. I think we are doing 
everything we can to protect them, starting with the lowest 
income consumers, and then working up. That is a significant, 
significant part of the bill that I think has not been 
mentioned.
    Mr. Chairman.
    Senator Sanders. Thank you very much.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair.
    A couple of you mentioned electric cars. My colleagues 
across the aisle have been talking about the electrification of 
passenger transportation. It has been estimated that if we have 
regenerative braking and cars can go the first 30 miles, if you 
will, on electricity, that we would reduce 80 percent of our 
carbon dioxide production from passenger transportation.
    What are other aspects that you are considering in the 
States to promote the transformation to an electric passenger 
car world? And what other ideas should we be considering here 
in our Nation's capital?
    Mr. Ritter. Sir, one of the things about electric cars is 
their tie into a smart grid. Actually, an electric car that is 
fully charged can load back onto the grid and get compensated 
for that, and pull off at an off-peak time and wind up being a 
net savings. So, this idea to have a smart grid and electric 
cars at the same time has really interwoven in a way that makes 
economic sense to the family.
    Ms. Gregoire. The one that I would suggest, Senator, and 
the thing that we are grappling with with the electricity 
highway, north to south between our three States, is how does 
the consumer to travel a long distance without regeneration? 
So, we are looking at using our public facilities where they 
can either stay and regenerate, or they can transfer their 
battery and get a new battery in and move along so that it is 
very convenient for the consumer.
    We really need help and incentives in research and 
technology on how to make this happen efficiently and 
effectively. We would ask for your help in that regard.
    Senator Merkley. Thank you. Governor, you wanted to jump in 
as well.
    Mr. Hoeven. In North Dakota, we have a company called 
Global Electric Motors owned by Chrysler. They make electric 
vehicles for Chrysler. We also are doing development work in 
terms of hydrogen and hydrogen-powered vehicles. In both cases, 
I go back to both creating a certainty and then also the right 
kind of incentives.
    For example, something as simple as making sure those 
vehicles are street legal. In some places, you cannot drive 
them. So, certainty so that consumers can buy these vehicles 
and know that they are going to be able to use them, combined 
with incentives, both for research and development, but then 
also for consumers that buy the vehicles in the new technology.
    Senator Merkley. Thank you. Those are all great points, and 
I appreciate the work the States are doing.
    Governor Ritter, you noted that you support major climate 
legislation but not necessarily in the exact format from 
Waxman-Markey. Are there specific suggestions that you would 
have for how we might improve upon Waxman-Markey?
    Mr. Ritter. Well, again, as a State with natural gas, I 
think natural gas and a different focus on that than was in the 
Waxman-Markey bill, is important to consider. It is a much 
cleaner burning hydrocarbon, whether you talk about it in terms 
of turbines used to generate electricity or compressed natural 
gas used to motorize vehicles. So, that is certainly one thing. 
I will admit a self-interest as the Governor of a State with 
abundant natural gas and such a volatile market presently.
    Other than that, I think that the most important thing is 
that it be driven around climate goals and that the good work 
of the Senate be focused on that, and listen to the people who 
are the critics of Waxman-Markey and ask the question, what is 
the way to improve upon it, so that there are not such 
significant winners and losers, perhaps, except around climate 
reduction.
    Senator Merkley. Thank you. And our other Governors, 
Governor Gregoire and Governor Hoeven, is there anything you 
would like to add on that score?
    Ms. Gregoire. I would only ask that you consider whether 
the ability for efficiency in the standards is beyond what it 
should be, and we should solidly have a national set of 
standards for renewables and stick to it. I agree with the 
predictability and sustainability concept. But if we say 
efficiency can eat into that dramatically, I do not need that 
we are going to incent the kind of capital investment that we 
need in renewable energy.
    Senator Merkley. So, perhaps separating the two standards 
rather than having them exchange for each other. OK.
    Governor Ritter, in your written testimony, I am not sure 
if you mentioned this is your oral testimony, but Boulder 
County has a program of low interest loans to help people pay 
for energy investments, energy improvements to their homes up 
front, then pay those loans off on their property tax bill. We 
just passed a similar bill in Oregon. Do you want to comment on 
how that is working and the theory behind it?
    Mr. Ritter. It was passed by the voters, and again, I 
think, Senator, in all fairness I think it is just too early to 
say how it is working because it has just been passed. It is 
modeled after something that a local community in California 
had done as well. We are considering it, whether that is 
something to do at the State level. But I cannot really say 
much about it because our tax assessments are done every other 
year, so we just have to wait to see how many people wind up 
participating in it.
    Senator Merkley. Great. Well, we will look forward to those 
results, and hopefully we will have the Oregon program up and 
running as an example as well.
    I think my time has actually expired. Thank you all very 
much. It is tremendous to see what you are doing at the State 
level.
    Senator Sanders. Senator Klobuchar.
    Senator Klobuchar. Thank you very much.
    Governor Ritter, you were talking about your renewable 
portfolio standard. I think it is interesting because, as you 
said, you are a State that has oil, natural gas, but you had 
some popular bi-partisan support for putting a renewable 
electricity standard in place. Why do you think that is as we 
look at how we can gain bi-partisan support for an energy 
policy?
    Mr. Ritter. Thanks, Senator. I really do think it is 
because the voters led the way initially. There was no 
leadership in our State that really, I think, supported a 
renewable energy standard, and we put it on the ballot and the 
people in the State, I think people in the West have a real 
interesting, I think, tie to the land, and I believe view our 
time here really as stewards.
    I am not trying to be glib about that. I really believe we 
have this relationship to the land that may be different than 
other places. And it is why you have seen the Western Climate 
Initiative and the Western Governors be able to get together on 
this.
    We have some evidence of things that we believe are a 
product of global warming. The pine beetle kill in Colorado is 
very significant. I think that helps people think about climate 
and the need to address it. The renewable energy standard was 
just one way of doing that in 2004.
    Once the utility, the investor-owned utility, saw that they 
could make it, and make it far ahead of the goal, then they 
were on board for us to double the renewable energy standard. 
That has been our secret, seeing that there are these benefits 
that are about the economy, about energy policy and the 
environment, and they are all intermeshed.
    Senator Klobuchar. I also think, it seems, our State has a 
similar story. People saw that they could have some skin in the 
game, that they could make some money off this, that they could 
get some jobs off this. And I think part of why there is more 
support in our State was the biofuels.
    And while that may not be related to the electricity 
standard, they could just see that part of this home grown 
energy, this new energy economy, that they could be a piece of 
this, that unlike the information technology revolution, which 
gave the Silicon Valley a bunch of jobs, there actually could 
be jobs, Governor Hoeven, in the Red River Valley.
    So, I guess that is my next question. One of the things we 
are going to be looking at is biofuels. I think we will make a 
transition to cellulosic. I do not think we should be pulling 
the rug out from under our biofuels, but one of the things that 
we have been looking at is increasing the blend standard for 
biofuels.
    Governor Hoeven, as a State that has both biofuels and oil, 
do you want to talk about what you think of that idea?
    Mr. Hoeven. You should do it.
    Senator Klobuchar. Thank you, with that North Dakota 
directness. Governor Ritter, any comment on that? I know 
Senator Salazar was working on that before he left, and your 
two Senators have been working on that.
    Mr. Ritter. I, likewise, would support that. We also have a 
plant that is just opening up on the Southern Ute Reservation 
that turns algae to biofuel. We have a variety of different 
corn ethanol plants in the State. There is great research 
happening about how to transition to different kinds of things 
that are not food supply based, like corn.
    But I think the most recent thing happening, and the 
biggest thing that may be happening in Colorado, is, in fact, 
that algae research from Colorado State University is being 
transferred to commercial technology.
    Senator Klobuchar. Governor Gregoire, along these lines of 
getting people behind a new energy policy and feeling that they 
can be a piece of this, too, would be forestry and biomass from 
logging. I know, like Minnesota, you have a major forestry 
industry in Washington State.
    Do you want to talk about the role that the forestry 
industry can have in this?
    Ms. Gregoire. Well, they are at the table. They are 
supportive of the initiatives of that we have put in place for 
cap-and-trade because they know they are part of the solution. 
Agriculture is also at the table. They see themselves as part 
of the solution with new kinds of biofuels. Boeing has had its 
first international flight testing biofuels. It can transform 
the entire aerospace industry.
    So, our public is very supportive, and now our business 
community has stepped up to the challenge of the public. And it 
has been welcome, and it is a job creator for us.
    Senator Klobuchar. Very good. And then last, I talked in my 
opening statement about China. I recently visited there with 
Senator McCain and Senator Graham and the work that is going 
there and some of these other countries. In Vietnam, the No. 1 
issue the Prime Minister there raised was their concerns on 
climate change and the effect on the world.
    Do you want to talk, being in Washington State and having 
many trade deals with Asia and things like that, your concerns 
about, I raise this issue, that we should be selling to them 
instead of them selling to us, on the technology issue?
    Ms. Gregoire. My best is the story in which President Hu 
Jianto and the Vice President of China came to visit Washington 
State in 2007. In a conversation that I had with them, I asked 
the question what is the greatest challenge to China? The 
answer back was energy and the environment.
    And the next conversation was about global climate change 
and how we could work together, and that we had new initiatives 
in biofuels, and they indicated to me that whatever we could 
produce, they would import it all.
    Therein lies what I began to understand is a future 21st 
century economy where we can be exporting technology, exporting 
biofuels. It is a new economy for Washington State. That is 
what is driving us as one of the most trade-dependent States in 
the country.
    Senator Klobuchar. Thank you very much.
    Senator Sanders. Let me conclude the Governors' section of 
the hearing by thanking Governor Ritter, Governor Gregoire, 
Governor Hoeven and Governor Corzine, not only for what you are 
doing back home, but for being here today.
    You may or may not know that this hearing was attended by 
almost every Senator, which is a bit unusual for hearings, and 
it indicates, I think to all of us, the important work that you 
are doing, what we can learn from you, and how we have got to 
go forward together on this important issue.
    So, I thank you very much. Now, it is time for the Mayors.
    OK. We are delighted to have four wonderful Mayors with us. 
As a former Mayor, I very much appreciate the hard work that 
you do and how you have to deal with day-to-day problems. I 
think the last 8 or so years we have seen great innovation 
coming from city halls all over this country.
    I will say to the Mayors is that we think there may be a 
vote in 5 or 10 minutes. Senator Merkley and I will rotate the 
gavel, and I will be back as soon as I can.
    But why do we not begin with Mayor Bob Kiss of Burlington, 
Vermont, which is the city of which I live and in which I had 
the honor of being Mayor some years ago.
    Mayor Kiss.

             STATEMENT OF HON. ROBERT KISS, MAYOR, 
                      BURLINGTON, VERMONT

    Mr. Kiss. Thank you, Senators, Chair of the subcommittee 
and other members of the committee, for having us here today. I 
have some written testimony that already has been submitted, 
and I will refer to it in a minute.
    One thing that I wanted to comment on is that in Vermont 
right now, Bill McKibben is in residence at Middlebury College. 
He is an environmental activist very concerned about climate 
change and greenhouse gases. I think the message he has been 
giving to the people of Vermont really says that if we do not 
do something in the next 8 years, there is going to be 
irrevocable changes in our climate 30 years out that will be 
unacceptable.
    I think some of the people who left here, who were escorted 
out earlier, younger people, really are taking that to heart. 
They see it not only affecting their own future seriously, but 
their children's futures. They are not convinced, I do not 
think, that we will have the ability or the determination to 
challenge the issue that confronts us today. And I think that 
really is the backdrop to our discussion.
    In Burlington, what I assumed, when I became Mayor, I 
think, was a commitment to build a sustainable city, and 
sustainability has not been a lot of the conversation that has 
been here today, either. What we have to do here is something 
that lets us live into the future successfully. I think we have 
to have courage in order to be able to do that.
    Clearly, greenhouse gas emissions and climate changes, in 
my mind, are real, not a figment of someone's imagination, and 
we need to address it.
    From Burlington's perspective, I think we have been 
successful in a lot of ways because we had begun to attack this 
issue, really, about 30 years ago. I am going to just read two 
paragraphs from my information that was submitted earlier to 
talk about what we have done over the past 30 years.
    In 1990, Burlington voters approved an $11 million bond to 
fund energy efficiency programs for 2002. Since 2003, 
Burlington Electric Department customers pay a small monthly 
charge that supports energy efficiency programs. The result of 
this investment is compelling.
    Annual electricity consumption in 2008 was about 1 percent 
greater than in 1989. Even with substantial local economic 
growth over the last 19 years, Burlington has met demand with 
about the same amount of electricity used in 1989.
    And energy efficiency investments save Burlington consumers 
over $8.9 million in retail electric costs annually, savings 
that go back into the local economy. Every year, these savings 
also include preventing the release of carbon dioxide measured 
at 64,700 tons in 2008.
    These energy efficiency efforts go hand-in-hand with a 
commitment to renewable electricity generation. Currently, 67 
percent of Burlington's electricity is generated through 
renewable energy sources. A substantial portion of Burlington's 
renewable energy is supplied by the McNeil Generating Station, 
a wood burning plant that began operation in 1984.
    At full load, McNeil can generate 50 megawatts of 
electricity. Much of the wood that fires McNeil comes from 
Vermont and regional sources, keeping the economic activity 
created by wood demand local.
    Last year, BED installed a nitrous oxide reduction unit at 
McNeil which allows it to sell renewable energy credits. The 
sale of these credits is expected to pay the costs of 
installation of the nitrous oxide reduction unit within about 3 
years.
    Building a green economy is an integral part of 
Burlington's development plan. That is what we are about. But I 
think the goal here is to build a public infrastructure that is 
green, so that all jobs become greener. At the same time, jobs 
in the new economy are green collar jobs that are responding to 
our capacity to create a public infrastructure that is green.
    I think that has got to be our goal. Ultimately, it cannot 
be just about developing green jobs. It has got to be about 
creating a green infrastructure in society that does this 
routinely and is an answer to the question of what our lives 
will look like in 30 years.
    So, Senator Sanders, there are two other elements that come 
from this, and maybe I will talk about them later. But, we want 
to create, and we have authorizing legislation in Vermont now, 
clean energy assessment districts. This is the same idea that 
was talked about in terms of Boulder. Burlington is looking at 
that process now, and as I said, we have State legislation that 
would allow us to do it.
    Second, we have heat that is wasted at McNeil that we know 
can be used to support district energy, in other words, using 
that waste heat to heat as many as 8,000 homes in the city of 
Burlington. That is the second project we are looking at.
    Thank you.
    [The prepared statement of Mr. Kiss follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Sanders. I am going to introduce Mayor Bill Euille 
of Alexandria, Virginia. We thank you very much for being here.
    I am going to run down and vote. Senator Merkley will take 
the gavel and then I will be up in a few minutes.
    Mayor Euille.

    STATEMENT OF HON. WILLIAM D. EUILLE, MAYOR, ALEXANDRIA, 
                            VIRGINIA

    Mr. Euille. Thank you, sir.
    Good afternoon, Mr. Chairman and members of the committee. 
My name is William Euille, and I am the Mayor of the city of 
Alexandria, Virginia. Thank you for the opportunity to testify 
about three critical environmental challenges, climate change, 
clean energy and the new green economy which, indeed, requires 
a joint collaborative partnership between cities, States and 
the Federal Government.
    As Mayor and lifelong resident of Alexandria, I am 
concerned about the potential impacts climate change may have 
on a coastal city like Alexandria, our 141,000-plus residents 
and the surrounding region.
    In February 2005, I, as a Mayor, endorsed and signed the 
2005 YES Conference of Mayors Climate Protection Agreement 
along with 278 other Mayors from 43 States, representing a 
total population of over 48 million. The sole purpose there was 
for the conference to meet or exceed the Kyoto Protocol 
greenhouse gas reduction targets through the use of local land 
use planning, urban forest restoration, public outreach 
campaigns and other greenhouse gas reduction strategies.
    In 2007, Alexandria began a strategic planning process 
known as the Eco-City Alexandria initiative, to guide the city 
over the next 30 years toward becoming a true eco-city, in 
other words, sustainability, a place where people can live 
healthier and economically productive lives while reducing 
their environmental impact. City officials, city residents and 
staff spent countless hours exploring best practices from 
communities across the country to develop an environmental plan 
for the city.
    In 2008, the City Council adopted the Eco-City Charter, 
which outlines the vision and guiding principles for Alexandria 
to become an eco-city. One year later, Council adopted 
Environmental Action Plan 2030 as a road map for city leaders, 
staff and residents to implement the sustainability, visions 
and principles set forth in the Eco-City Charter. Only a 
handful of communities have developed such a comprehensive 
action plan that includes climate change protection as a 
critical component.
    I would like to tell you about some of the things that we 
are doing to become an eco-city. In Alexandria, we recognize 
how the quantity and sources of energy used by local 
government, businesses and residents affect our environment and 
quality of life. And we have committed to managing our energy 
supply and usage in a sustainability manner.
    A prime example of this commitment is the city's 
partnership with an energy-from-waste facility for more than 25 
years. This facility generates enough clean, renewable energy 
to supply power to approximately 20,000 homes via the 
combustion of municipal solid waste. Diversion of our municipal 
solid waste from a landfill to the energy waste facility 
reduces the city's carbon emissions by approximately 160,000 
metric tons annually.
    The city also supports energy efficiency and conservation 
technologies and is working to create a green jobs training 
program to train residents to perform energy audits, weatherize 
houses and other buildings, install solar, wind, geothermal 
devices and other clean and renewable energy technology.
    To support the implementation of the Eco-City Environmental 
Action Plan, Alexandria plans to use some of its energy 
efficiency in Conservation Block Grant Funding for conversion 
of the city's street lights and traffic signals to energy 
efficient LED lamps, expansion of the city's green fleet 
program, support of green jobs training for weatherization 
technicians and energy auditors, and establishment of a green 
revolving loan program for property owners.
    Implementation of these programs and related projects will 
result in the creation of approximately 15,000 jobs and reduce 
carbon emissions by an estimated 19,000 metric tons.
    Among Alexandria's other green projects and achievements 
are the new T.C. Williams High School building, which received 
the LEED Gold Certification, the award winning design of a 
green building in a former brown field that will house a fire 
station, retail and 64 units of public housing, adoption of a 
new city policy that will seek to have all new buildings 
achieve LEED Silver Certification or better, completion of the 
city's greenhouse gas emissions inventory, and installation of 
solar panels to provide lighting in bus shelters and vegetative 
filter boxes on neighborhood streets to treat and clean roadway 
runoff.
    I have spoken to you today about some of the steps 
Alexandria has taken to become an eco-city, and about some 
green amenities that make Alexandria a great place to live. 
However, to fully implement the Eco-City Alexandria initiative 
goals, we need your support.
    America's cities and towns need your support. Such support 
should include the annual funding of the Energy Efficiency 
Block Grant Program, increased funding for transit, pedestrian 
and bicycle projects, and revisions to Federal programs to 
ensure that they will support a green economy.
    Local governments play a critical role in improving energy 
efficiency, shifting the country to cleaner sources of energy, 
and reducing greenhouse gas emissions. While partnerships with 
States and the private sector are essential to successful local 
actions, the development of effective climate change and clean 
energy strategies will certainly fall short without direct 
appropriation of funding to local governments to supplement 
local funds that we will spend.
    Local governments should have the flexibility to spend 
direct funds in areas such as capacity building, development of 
green initiatives, outreach education, and planning efforts 
like the Eco-City Alexandria initiative. Federal support for 
these and similar program would enable communities across the 
country to build their own eco-cities.
    America's cities have always been the economic engine for 
growth and prosperity, and continued Federal support will go a 
long way in ensuring their continued success in energy 
efficiency, job growth expansion and eco-stability.
    Thank you.
    [The prepared statement of Mr. Euille follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    Senator Merkley [presiding]. Thank you very much, Mayor.
    Our next witness is Hon. John Lowery, State Representative 
from Arkansas.

  STATEMENT OF HON. JOHN LOWERY, REPRESENTATIVE, DISTRICT 6, 
               ARKANSAS HOUSE OF REPRESENTATIVES

    Mr. Lowery. Thank you, Mr. Chairman, Ranking Member and 
distinguished panel here. It is a great opportunity to be here 
today.
    Let me tell you a little bit about my district. What we are 
assuming here is that the Waxman-Markey bill will generate 
economic growth and help local communities. That is the 
assumption, and that is the prognosis. But let me talk to you a 
little bit today about the reality of the impact this bill, as 
written, would do to certain segments of the economy and to my 
district.
    My district has a diverse assortment of companies that 
employ our citizens. These are oil refiners, oil and gas 
related entities, timber industries, chemical companies, 
service industries, financial institutions, retailers and 
agriculturally related businesses that are, primarily, small 
family farms, poultry growers, tomato farmers, cattle farmers 
and such.
    With the presumption, and certainly we are not opposed to 
the addition of jobs and an increase in economic development in 
other parts of the country, but let me tell you what this will 
do dramatically to us.
    One of our larger employers in South Arkansas is Lion Oil 
Company. Twenty years ago, independent businessmen purchased 
this refinery from a California-based company that was willing 
to give it up or shut it down. They salvaged it. They retained 
it. They have spent millions of dollars environmentally on this 
plant, making it efficient, and have grown the plant and grown 
its market.
    The impact Waxman-Markey and the cap-and-trade credits 
would impose on them is a $180 million price tag. That would be 
the tax for them to continue to operate. That is an undue 
burden on them. That would be the loss of 1,200 direct jobs and 
up to 3,000 indirect jobs related.
    Also, Murphy Oil is a company that is headquartered in El 
Dorado, Arkansas. And they choose to be. They have refineries 
in Louisiana and Wisconsin, have offices in other parts of the 
United States, but they choose to locate in El Dorado, 
Arkansas. And they bring some very valuable jobs. This would 
cost them approximately $400 million annually.
    So, what I am here today to talk about is the impact of not 
betting on the come, but what is reality if this is enacted, of 
what it would do, and it would devastate us.
    Recently, we had the loss of over 1,800 jobs because 
Pilgrim's Pride, a poultry producer, went bankrupt. Shut down 
the plant, laid them off and sent them home. We cannot stand 
any more unemployment and the taxes, of undo taxes, to our 
particular region.
    So I am here today to plead the other side, if you will, of 
what is known, and not the unknown. Certainly we all are for 
new ideas, new technology. The State of Arkansas is looking at 
these, natural gas, transportation, biomass, cellulosic fuel 
and alternatives there. We are all for that. But I can tell 
you, if this legislation and these policies are enacted as they 
are, it is going to have a dramatic impact. Our unemployment 
now, because of the poultry-related layoffs, is up to 10 
percent on my county. They would skyrocket to over 20 percent 
if we have additional layoffs in the impact of this.
    So, I am here to talk for the little man, if you will, not 
the policies and not the State. But I am a realist. And the 
reality of this is a severe impact.
    I am a Democrat. This is not a partisan issue. It is a 
divisive issue that separates, I am afraid, different parts of 
our country and would be very divisive. We do not need that in 
this economic downturn. We need to all be pulling together.
    I think also the impact this would put on the energy 
industry would severely jeopardize our national security. That 
has not been discussed here today, but that is a very real 
probability. As you take products off the market, as you shut 
refineries down, where are they going to come from? India? 
China? The Middle East? So, we have to think about National 
security as well.
    That completes my remarks. I have other things to submit to 
the record, Mr. Chairman, if appropriate, to substantiate my 
testimony.
    [The prepared statement of Mr. Lowery follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Merkley. Thank you very much, Representative 
Lowery.
    I ask for unanimous consent that your additional articles 
be submitted for the record. Not seeing any objection, we will 
do that.
    [The referenced information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Merkley. While I am mentioning that, Senator Webb 
has submitted a statement for the record as well, and I ask for 
unanimous consent that that be added to the record as well. 
Without objection, we will do that.
    [The prepared statement of Senator Webb was not received at 
time of print.]
    Senator Merkley. And now we are to another Mayor, Mayor 
Palmer. Welcome.

STATEMENT OF HON. DOUGLAS H. PALMER, MAYOR, TRENTON, NEW JERSEY

    Mr. Palmer. It is a pleasure to be there. The camera guys 
left me just as I was about to speak, but I am going to move 
forward anyway.
    [Laughter.]
    Mr. Palmer. It is a pleasure to be here. I want to thank 
Chairman Boxer and Senator Sanders. He has been an outstanding 
advocate on this issue, along with my Senators in New Jersey, 
Senator Lautenberg and Senator Menendez, and my own Governor, 
Governor Corzine, who has shown true leadership.
    I have remarks that are entered into the record. I just 
want to speak as a Mayor and give some of my thoughts, 
especially after hearing the interchange between both sides of 
the aisle.
    You know, as Mayors, we do not have the luxury of really 
being partisan. We are where the rubber meets the road. We have 
to deal with our constituents each and every day.
    And I was listening to the debate, I thought about the 
saying that says, you know, we may have all come over here in 
different ships but we are in the same boat now. Quite frankly, 
no matter what party you are in or where you are from, we 
actually are in the same boat.
    In 2007, as president of the United States Conference of 
Mayors, we held the largest meeting of Mayors as it relates to 
climate change in this history of our country. When we came 
back, we heard about the polar ice caps and the polar bears 
looking for places to go. And I said to myself, if I come back 
to Trenton, New Jersey, and go into the neighborhood and tell 
the people we need climate change because of the polar bears, 
they would say, you know what Mayor, you have lost your mind.
    We need real climate change. If you are talking about 
climate, we want the climate to change in our neighborhoods. We 
want to create jobs. We want to feel safe.
    I recognize that this is an issue that some areas are 
father ahead of than others. So, I instituted a Trenton Green 
initiative, and brought everyone together. I do not want to say 
everyone, but you could imagine who was brought together as we 
looked at this issue because it is really a grassroots issue, 
and change is really going to come from the grassroots.
    We set up this committee, and fortunately we pushed for an 
Energy Environment Block Grant with which you, Senator, and 
others were very helpful, which was giving money to cities so 
that we can do the retrofits. We cannot tell our citizens that 
they need to retrofit, we cannot tell our businesses that they 
need to retrofit, if we do not do our due diligence and 
retrofit public buildings.
    The Energy Environment Block Grant which the Conference of 
Mayors championed, and which you were a champion of, is helping 
us, especially when we have it now with ARRA. We are able, in 
Trenton, to convert our 3,000 traffic signals to LED, which 
will save us $130,000 a year, every year. We were also able, 
with this money, to retrofit a new courthouse, a rehabilitated 
courthouse which is going to also create jobs.
    But when you talk to the citizens every day and they say to 
you, why should I care about climate change, I just say back to 
them, you are a senior citizen, you are on a fixed income, you 
own a home, do you care about your energy costs? Do you know 
that you can reduce your energy costs? I care about that. Your 
grandson, you are talking about how he needs a job, he is not 
working. We can have jobs in terms of retrofitting and 
weatherization, which is what we are doing. They care about 
those things.
    And if you talk to a young mother or father about their 
child having asthma and why does it continue to happen and what 
we need to do to clean up the environment, then you see that 
this is an issue that really touches each and every one of us.
    I have confidence in this committee, and in the Congress 
and Senate, that you will have dialogue. You will go and battle 
your points, but at the end of the day, really have a red, 
white and blue, and not just a green policy, and one that will 
have as a centerpiece as well not only reducing carbon 
emissions, but also putting money into the grassroots levels, 
into cities through an Energy Environment Block Grant as was 
mentioned. Not just 1 year, but for 40 years, so that we can 
use that money and plan appropriately and so that we can also 
use some of that money to do the kinds of things for small 
businesses as it relates to revolving loan funds so that they 
can help their businesses go green. too.
    I think we all want to do it. I think it is just a matter 
of how do we do it.
    So, I am confident that working with all of you, and the 
Mayors across this country who have shown the leadership from 
the very beginning, such as Mayor Greg Nickels, who started 140 
members to sign the climate agreement and now we are almost 
1,000 Mayors that are saying that we are going to reduce 
greenhouse gases and also create jobs.
    This can be done. We have a report, Global Insight, which 
talks about how we can create the 4.2 million jobs doing a 
multitude of things. It is all about getting on with the 
business at hand. I know our citizens would like to see that.
    We have shown tremendous success with young people who are 
now being trained and doing work in making their communities 
better, and not just having a green collar job, but also 
developing green collar careers as a result of it.
    Thank you.
    [The prepared statement Mr. Palmer follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Sanders [presiding]. My apologies for having to go 
down. I am going to get my bearings here, and I am going to let 
Senator Inhofe begin the questioning.
    Senator Inhofe. Thank you, Mr. Chairman.
    I enjoyed your remarks, Mayor Palmer. I used to have a hard 
job. I was the Mayor of a city.
    Mr. Palmer. You have the hardest job as Mayor.
    Senator Inhofe. There is no hiding place. If they do not 
like the trash system, they put it in your front yard. And I 
know, because they did.
    [Laughter.]
    Senator Inhofe. I would only say this. I would hope that 
since, and you are right on in terms of what is important to 
real people, they are out there, they want their jobs, and I 
hope that you will read the testimony of our witness that we 
had last week, Harry Alford, who is the president of the 
National Black Chamber of Commerce. It is not a matter of just 
losing jobs if we are to pass this bill, but it is regressive.
    In other words, the percentage of income that a person has 
who is very poor that goes toward heating his home is much 
higher than it is for a wealthy person. And that is what I 
would like to have you look at for sure.
    Representative Lowery, I appreciate that you are here, and 
I want your beautiful wife to hold her hand up so that we know 
that support is there.
    I was following along with you, and I did not see that in 
the written testimony, but I understand that you said $180 
million a year on the refinery in El Dorado?
    Mr. Lowery. Yes, sir.
    Senator Inhofe. What is the name of that refinery?
    Mr. Lowery. It is Lion Oil Refinery. It is owned by a group 
of independent businessmen. It is not Exxon or ARCO level 
whatsoever. It is a small independent.
    Senator Inhofe. OK, because we have the same thing in my 
State of Oklahoma. Now, you said right now in El Dorado the 
unemployment rate is at 10 percent?
    Mr. Lowery. It is 10.2 percent.
    Senator Inhofe. Is that due to the poultry plant? Tell us 
what happened in that poultry incident.
    Mr. Lowery. Well, all areas of our economy, unfortunately, 
as diversified as we are, are suffering as are most parts of 
the country. But with the plant closing, the poultry plant, not 
only did that eliminate 1,800 jobs, it also affected the family 
farms, the poultry people who are mortgaged to the hilt for 
their poultry houses, and their farms and they are not even 
included in there.
    Senator Inhofe. So, prior to that exodus, what was the 
unemployment rate before it became 10 percent?
    Mr. Lowery. We started out, before the economic downturn, 
at 5 percent.
    Senator Inhofe. At 5 percent. And then you say that, in the 
event that this would happen if they passed the Waxman-Markey 
bill which would effectively shut down your refinery, is there 
an analysis saying what it would be up to then?
    Mr. Lowery. No, sir. I have a resolution here included for 
the record from the Mayor and the City Council of the impact, 
but I got my information from Mayor Dumas last week and asked 
him to calculate and have his staff calculate it.
    Senator Inhofe. OK, well let me ask you this. Two weeks 
ago, we had Lisa Jackson. She is Obama's appointee as Director 
of the Environmental Protection Agency. I asked her the 
question. I said, if we were to pass Waxman-Markey what would 
it do in terms of reducing the overall CO<INF>2</INF> going 
into the air? She thought for a while, and I applaud her, and I 
have applauded her since then for her honesty, she said, 
nothing. It will not affect it.
    What she is saying is this: the problem we have is not 
here. The problem is in China, in India. In China right now 
they are cranking out two new coal-fired power plants ever 
week. They are looking at us right now hoping and praying that 
we will pass this bill so they can get our manufacturing jobs 
over there. And that would be a place where there are no 
emission requirements, no restrictions, and the end result 
would be an increase in the amount of carbon into the air. Does 
that make sense to you?
    Mr. Lowery. Yes, sir. Unfortunately, India, presently, is 
building a large refinery, I think a 400- to 600-barrel 
capacity, with no restrictions on it. They are designing that 
thing to make gasoline for America and to meet American 
standards.
    Senator Inhofe. Oh, and I have got the quotes that you 
probably were going to read there. They are, under no 
circumstances, going to put any kind of restrictions on 
themselves. When they go to Copenhagen, there is a, not us you 
guys.
    Mr. Lowery. So, unfortunately, this represents, as we see 
if, if we shut local refineries down, independents, large or 
small, these job transfer are going to go to India. It is 
another large transfer of wealth that is already going to the 
Middle East that we are all opposed to and concerned about. 
This is going to add insult to injury, if you will, if we lose 
these domestic jobs.
    Senator Inhofe. Well, I would only ask you, or anyone 
there, in this bill there is an unemployment provision. There 
is a section that guarantees 70 percent of the wages for 3 
years and up to $1,500 relocation assistance. It would seem to 
me that it is logical that the drafters of this bill know it is 
going to cost jobs because they have unemployment benefits in 
there. Do you agree with that?
    Mr. Lowery. I agree. Absolutely.
    Senator Sanders. Let me start off with Mayor Kiss. In our 
city of Burlington, we have a large wood chip burning plant, 
and I know you have been talking about the potential benefits 
of the concept of district energy. Can you say a few words 
about what you would like to see in Burlington in terms of 
district energy?
    Mr. Kiss. Sure. With the McNeil, what a wood chip plant 
does is have extra heat which is not used in the process of 
creating electricity. That heat would be coming in the form of 
hot water which could be piped to as many as 8,000 homes in the 
city and businesses, and, essentially provide the heating and 
cooling opportunities for all of those homes and businesses if 
we could put the infrastructure in place to make that work.
    District heating is something that is used, for example, in 
Copenhagen. Ninety-seven percent of the heating method in 
Copenhagen, Denmark, is a district heating method. Jamestown, 
New York, a much smaller example, already uses it. So, the 
examples exist in both the United States and Europe. But----
    Senator Sanders. And not only would you be creating an 
inexpensive source of heating for the local residents, but you 
would be creating jobs in the area as well.
    Mr. Kiss. Absolutely. I think the one thing that is true, 
the Copenhagen experience, we had people come from Denmark to 
talk to us about their experience. They tend to run their 
programs on a 50-year investment, paid off in 25 years, that 
allows them then have 25 years of heat that is essentially with 
the infrastructure paid. The benefit of that, if we could put 
it into place, is significant in terms of Burlington's future.
    Senator Sanders. Mayor Palmer, thank you very much for all 
of the work you have done as the Mayor of Trenton and as the 
past president of the U.S. Conference of Mayors in 
understanding the importance of addressing global warming and 
the potential for job creation in the process. We appreciate 
having worked with you on the Block Grant Program that Senator 
Menendez and I introduced.
    In terms of the Energy Efficiency Block Grant Program, how 
is it working in your city in terms of job creation right now 
and addressing some of the energy problems of the city?
    Mr. Palmer. Well, what we are doing right now, we put 
together our plan. Like I said, we certainly are looking to do 
the retrofits in homes and also in buildings. And our police 
station. We are taking care of retrofitting those kinds of 
things as well. But we are also looking at that money to help 
us leverage other moneys with our housing authority, with our 
school system, in order to use more of that to do more 
retrofits and those kinds of things.
    Senator Sanders. And in the process you are creating jobs, 
I presume?
    Mr. Palmer. Yes. But the big thing I would say, Senator, is 
what the Mayors of the Nation are talking about. We definitely 
want this included in the bill and at least for 40 years. We 
need to know every year that money is there so that we can do 
the proper planning, so that we can use the money even more 
efficiently to leverage that, not just say it is a one shot 
deal.
    Senator Sanders. In other words, we did well in the 
stimulus package, but you want to see a regular source of 
funding----
    Mr. Palmer. We want to see----
    Senator Sanders. And the Conference of Mayors feels that 
strongly?
    Mr. Palmer. Very strongly about that. And like I said, 
Senator, this is sort of our baby together, what we have done, 
and I can tell you that it is creating, it is beginning to 
create, tremendous results in terms of jobs. Getting money 
directly to Mayors, getting money directly to cities, we will 
get that money out and create the jobs.
    Senator Sanders. OK. Thank you very much.
    Mayor Euille, I apologize for not hearing your testimony. 
But in your written testimony, you talked about the T.C. 
Williams High School, which is now a LEED gold facility. What 
impact is that having on the kids in the school and on their 
response to education in general? Can you say a few words on 
that?
    Mr. Euille. Yes, thank you, and I must say that the new 
high school is my former high school, the T.C. Williams High 
School. I graduated in 1968, and of course, while I hopefully 
will remember the successful 1976 movie about the T.C. Williams 
championship team, Remember the Titans, but the new building 
itself is a crown jewel. That is how I refer to it.
    It is a $100 million LEED gold certified building. Water is 
collected and retained on the roof and it circulates into a 
500,000 gallon tank which is then recycled back in the building 
to flush the toilets, recycled for heating the building, and 
drinking water and everything else. There is a garden, an 
environmental garden, on the rooftop that the students use for 
biology and science classes.
    The bottom line here is that it has been not just a 
building to educate students, but in terms of the core courses, 
it has actually enhanced and inspired them to fully appreciate 
and understand the importance of climate change and energy 
efficiency.
    Senator Sanders. Do the kids feel proud of the building?
    Mr. Euille. Very much so. As a matter of fact, not only are 
they proud of the building, but when I did the grand opening 
ribbon cutting, I encouraged them to protect this building 
because this a unique opportunity, one of its kind, and so I am 
up there usually at least a couple of times a week, and the 
building looks like it did the day it opened, almost spanking 
brand new, a few years later.
    Senator Sanders. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Representative Lowery, if I could. I was reading in your 
testimony that the Waxman-Markey bill will really change our 
way of life, you said in terms of at home in Arkansas, in 
regards to your community in lost jobs and higher energy 
prices. We have the same concerns in Wyoming. Our Governor, who 
is a Democrat, is opposed to the proposal.
    I am just curious. I think you touched on it a little bit 
in your testimony that it seems to be what is happening in mid-
America, bi-partisan opposition, as opposed to maybe on the 
coasts, which is bi-partisan support. Any thoughts on that?
    Mr. Lowery. Well, Congressman Mike Ross voted against it in 
the House, Marion Berry, Democrats, so it is non-partisan, if 
you will. What its effect is, and how, before I vote on any 
legislation at the State level, obviously not of this 
magnitude, I like to step back and say, what is going to be 
said to me back in the coffee shop in El Dorado before I cast 
my vote on this issue? Because I am going to go there, and I am 
going to hear those responses.
    And what I am hearing here from the people who have lost 
jobs is that the potential of this legislation already has 
stopped maintenance and a major expansion of Lion Oil. That is 
just the potential of this. Also, at Murphy Oil in our 
community, they are in a non-hiring mode.
    So it is non-partisan. It is not politics. It is about the 
people that we represent, real people in real jobs, not 
theoretical jobs. And we are not opposed to the increases and 
what other parts of the country want to do. But no, this is not 
a partisan issue at all.
    It is about the American people, the way they choose to 
live in the South in rural areas. They choose that. Let us help 
protect that. And let us also give jobs and opportunities and 
retain jobs in those areas as well as other parts of the 
country, but not at the expense of the other one.
    One principle, well, many principles, but one principle 
instilled in me by my parents, you never benefit yourself at 
the expense of others. Always watch that principle.
    And I know the Mayors here, I already just met Mr. Palmer, 
and I know he is a likeable personable guy, and he is already 
my friend, I think. And so I am not opposed to what these 
Mayors are saying here at all. I would not want my region of 
the country to do anything at the expense of them.
    Basically what we are talking here, we are talking about 
taxing some regions of the country, and I know that he is not 
proposing that, to fund other areas and other potential jobs. 
That is really what we are talking about and how we see it in 
South Arkansas. Thank you.
    Senator Barrasso. And to follow up on that, because that is 
what I hear in Wyoming when I am at home on the weekend, and I 
was just home this past weekend, on the same issues. I think in 
your testimony you said not only would this bill destroy our 
economy, our communities, our way of life, but it is also going 
to make us pay more, pay more, due to it. Can you talk a little 
bit about that?
    Mr. Lowery. I do not know what the price tag will be. I do 
not think anybody knows. But I think it is unrealistic to say 
$175 a year, whatever, per person. It is going to escalate 
costs tremendously.
    So, I do not have the scientific data, if you will, with 
me, not the benefit of a staff that maybe others have. But, I 
mean just reason tells you that this is going to be very 
expensive. For instance here $180 million for one refinery, if 
they can stay in business. And I do not think they can. This is 
company that their net profit for the last 23 years only 
averaged $12 million a year. You do the math. So, I would say 
that is a very expensive proposition.
    Senator Barrasso. So, in terms of employment and the 
employment picture in your community say 5 years from now, if 
this goes through, is devastating?
    Mr. Lowery. Yes, sir. The Mayor before I came up here, I 
asked him to run some figures based on the most recent 
unemployment, 10.2 percent currently, what this would do to 
direct jobs and indirect jobs that support Lionel and Murphy 
Oil in our community. And he projects from 18 to 20 percent 
unemployment immediately.
    Senator Barrasso. So, if you were able to get Congress down 
to your coffee shop or everybody from the coffee shop up here 
sitting at the table, what message would they send to 
Washington about this Waxman-Markey bill?
    Mr. Lowery. Well, they would say that this is, in our 
opinion, bad legislation. The theoretical part of climate 
change and addressing that, we are not opposed to that. New 
innovation, new technology, we are not opposed to that. But we 
are looking at real jobs, real people that are going to lose 
their jobs and have nowhere else to go in this economy.
    I think they would say take a second look and be very sure, 
very, very sure before you move forward this dramatically in 
taxing employers such as ours in our area there. Move very, 
very cautiously and be very, very sure before you do this.
    Senator Barrasso. Thanks, Mr. Lowery.
    Thank you very much, Mr. Chairman.
    Senator Sanders. Let me start off with Representative 
Lowery. I apologize for not having heard your testimony.
    Let me ask you the same question that I asked Governor 
Hoeven, and that is, seated exactly where you are seated now, 
over the past several years, we have been hearing testimony 
from some of the leading climatologists in the world. What they 
have told us is that if our country and the rest of the world 
do not get our act together, global warming is going to cause 
horrendous problems for the United States and the entire planet 
in terms of flooding, in terms of drought, in terms of extreme 
weather disturbances, in terms of disease, in terms of national 
security issues.
    Do you agree with them, that if we do not get our act 
together our planet is going to suffer irreparable harm?
    Mr. Lowery. Well, I believe there is, we need to address 
and look at climate change. I do. I know the scientific 
community argues about how much is manmade and how much is 
natural. But certainly either way we need to address it. And 
the human element, yes, we need to address it. But not as 
dramatic as is in this piece of legislation.
    Senator Sanders. So, you do not agree with what the leading 
scientists of the world are saying, that if we do not move 
aggressively, this planet will suffer irreparable harm which we 
may never recover from in the years to come?
    Mr. Lowery. I do not disagree. I just think we have a 
difference of opinion as to how aggressive and what the term--
--
    Senator Sanders. Oh, no, they are saying, and if you do 
disagree, that is OK, they are saying that if we do not act 
aggressively irreparable harm will occur.
    Mr. Lowery. I cannot disagree with that.
    Senator Sanders. You cannot disagree with that?
    Mr. Lowery. No, sir, I cannot disagree with that. I think, 
again, it is the means.
    Senator Sanders. OK.
    Mayor Kiss, you said something that I thought was very 
significant. I think we are proud of living in Burlington, 
Vermont, and the State is proud of it, and that is, since 1989, 
with normal economic growth, Burlington is, we have our 
problems with the recession but we are doing reasonably well, 
everything considered, Burlington today is consuming 1 percent 
more electricity than was the case 20 years ago.
    What would be the implications for the United States, do 
you think, if the rest of the country was as aggressive as 
Burlington has been in terms of energy efficiency and, in fact, 
the State of Vermont has in recent years as well?
    Mr. Kiss. Vermont has an energy efficiency utility, VEIC. 
What they have been saying for quite a while now is that they 
could reduce Burlington's and Vermont's energy use by one-third 
through energy conservation and energy efficiency measures. So, 
one of the real opportunities that is still out there for us is 
not to build new capacity, but actually to reduce the use of 
energy by weatherizing homes and taking that kind of action. If 
we invest in that, it is a much cheaper fix than building new 
capacity.
    Senator Sanders. You know, I have been hearing, over the 
last several years, how dire the economy would be if were 
aggressive in terms of dealing with global warming. And yet 
Burlington has been one of the leaders in the country. Has that 
had dire economic impacts?
    Mr. Kiss. I do not think so. I think positive affects have 
been the result. On the contrary, I think Burlington has been 
actually creating more jobs with higher wages than the rest of 
the State. I think people look to Burlington and the greater 
metropolitan area as the economic engine of Vermont. And the 
investment in green infrastructure, as I said earlier, I think 
greens all of the jobs in Burlington and at the same time it 
creates new green collar jobs that are clearly responding to 
change.
    Senator Sanders. OK.
    Mayor Palmer, I was excited to read your report stating 
that we could create, this is from the U.S. Conference of 
Mayors, 4.2 million green jobs by 2038 by increasing efficiency 
and alternative energy production. That would be a significant 
expansion over where we are today. Do you want to elaborate on 
that?
    Mr. Palmer. Yes, this is our 2008 Metro Green Jobs Report 
that we put out. I figured that you were going to ask me that, 
Senator, and that is why I wanted to be sure. Forty percent of 
it would come from electricity from alternative sources, 
another 35 percent reduction in energy use, and that is both 
residential and commercial buildings, and 30 percent of gas-
diesel demand replaced by ethanol and biodiesel. And my good 
friend here, I can give you this, too.
    [Laughter.]
    Mr. Palmer. So that is what we are looking at. Let us face 
it, Senator, this is a tremendous debate, especially to have 40 
years when we are looking at the first man landing on the Moon. 
We have got to do this.
    The cost of inaction is going to hurt future generations. 
If we do not do something now, you know, I love Florida, and 
parts of Florida may be underwater. Parts of Trenton, New 
Jersey, may be underwater. And then economic tsunami that would 
create would overshadow any kind of discussion that we are 
having as it relates to a gloom and doom forecast. We cannot 
afford not to do something.
    Senator Sanders. Well, I think Mayor Palmer, on that note, 
on that profound note, we are going to end the hearing. Just 
let me just say this, because I think you raise an issue that 
has not been focused on enough.
    Some of our friends say that the legislation that is coming 
forward is not perfect. Well you know what? It is not perfect. 
I think we have got to improve it, and so forth.
    But what you are saying is that the cost of doing nothing 
would, in fact, be catastrophic, not just for New Jersey or 
Florida or Vermont, but in fact for billions of people on this 
planet. And we do not hear that enough.
    It would be catastrophic in terms of human suffering and 
disease, and areas in this world that are often inhabited by 
some of the poorest people literally being underwater, and it 
would be a disaster in terms of what we would leave our kids 
and our grandchildren.
    And it would be a disaster economically. People are saying, 
oh, you want to spend a whole lot of money dealing with global 
warming. Yes, that is true. What would be the economic costs in 
terms of trillions of dollars of loss if we do not go forward 
aggressively?
    So, I think on that very profound note, which I happen to 
agree with very much, we will end the hearing.
    I just want to conclude again, as a former Mayor, by 
thanking all of you and you, Mr. Lowery, as well, I know you 
are in the legislature there, for the important work, the 
grassroots work that you are doing. Keep up the excellent work.
    Thank you all very much. The hearing is ended.
    [Whereupon, at 12:58 p.m., the committee was adjourned.]
    [An additional statement submitted for the record follows:]

                Statement of Hon. George V. Voinovich, 
                  U.S. Senator from the State of Ohio

    Madam Chairman, as a former mayor and Governor, I have a 
unique appreciation for the perspectives of State and local 
officials as we contemplate national policy. Those perspectives 
are particularly important as we debate national climate and 
energy policy. Over the past few years we have seen various 
iterations of cap and trade programs and renewable electricity 
standards make their way through the legislative process. While 
many of the underlying details vary in these proposals, what's 
clear is that these policies will have vastly different impacts 
from one region of the country to the next. And while various 
``winners'' and ``losers'' are created under these bills 
depending on how carbon credits are divided or how 
``renewable'' is defined, the bills are consistently shown to 
be losers for consumers in States that rely on coal for 
electricity generation, have a large manufacturing base, and 
that have limited access to renewable forms of electricity 
generation.
    Indeed, cap and trade is a policy mechanism that results in 
wealth redistribution among the various regions of the country, 
where consumers in regions with higher emissions pay consumers 
in regions with lower emissions for the right to emit. Thus it 
is no surprise that you see Senators from the Northeast and 
Pacific Northwest advocating for aggressive carbon caps. The 
same is true of proposals to implement a national renewable 
electricity standard: generators that cannot meet the standard 
will have to buy ``green'' energy credits from those that can. 
Not surprisingly, Senators representing States with large 
resources of renewable energy are the most vocal advocates for 
aggressive RES requirements.
    The Waxman bill compounds this problem in a number of ways: 
First, the bill combines an RES with a cap and trade program. 
The result is a system of overlapping and redundant 
requirements that will impede cost effective emissions 
reductions and increase the overall costs of the policy and the 
flow of resources from one region of the country to another. 
Indeed, if national emissions are being controlled by the cap, 
there is no need for an RES.
    Second, the bill's allocation scheme under the cap is 
punitive to coal dependent regions. This is most clearly seen 
when looking at the allocation formula for the electric 
generating sector. Under this formula, 50 percent of the 
credits are given to utilities based on historic emissions, and 
50 percent are given based on electricity sales. However, 
awarding allowances based on electricity sales gives credits to 
companies that do not need them for compliance purposes. That 
is, generators utilizing nuclear power or renewables to make 
electricity have no compliance obligations for those sources. 
Quite simply, giving allowances to entities that do not emit 
greenhouse gases increases compliance costs for those that have 
emissions reductions obligations. The result will be a 
``windfall'' for States in the Northeast and Pacific Northwest, 
while States in the Midwest and Southeast run carbon deficits.
    For example, under the electricity allocation structure, 
Ohio will have only 70 percent of its utility emissions covered 
by free allocations. California, on the other hand, will 
receive 140 percent of its utility emissions in free 
allocations. Assuming a modest CO<INF>2</INF> price of $15 per 
ton, the result is a net loss to Ohio's electricity customers 
of $643 million in 2012 and a net gain to California's 
customers of $385 million in 2012. Such an allocation scheme is 
unfair and unnecessary.
    Separately, the bill provides for Federal preemption in 
areas where it should not and fails to preempt States where it 
should. For example, the bill gives the Federal Government 
power over local building codes. The new established national 
building codes would be federally enforceable, giving the 
Federal Government the ability to dock Federal funding or 
carbon allowances from States that don't meet the national 
efficiency targets. This represents an unprecedented level of 
Government intrusion into State and local affairs that has 
little to do with the bill's goals. As with the RES, if 
emissions are being controlled by the cap, these provisions are 
unnecessary.
    Alternatively, the bill does not preempt State cap and 
trade programs. Unlike localized reductions in other air 
pollutants (e.g., sulfur dioxide, particulate matter), when an 
emissions source reduces its carbon dioxide emissions, it does 
not generate a corresponding local climate change benefit. From 
a practical standpoint, the actions of one or a group of States 
cannot by themselves reduce the global accumulation of GHG 
emissions in the atmosphere. At the same time, a patchwork of 
standards and regulations across the Nation may hinder a 
company's efficiency and create additional economic burdens for 
firms that operate in multiple States.
    Of significant concern, the bill appears to cede expansive 
authority to States to adopt measures that would directly 
impact the nature and scope of the Federal cap-and-trade 
program, including the availability of allowances and their 
cost in the new carbon marketplace. Section 334 expressly 
permits a State to require the surrender of Federal emissions 
allowances as a means of demonstrating compliance with a State 
program. Thus, a State, or group of States, would have the 
ability to adjust the level of available emission allowances 
within the Federal program. And because allowance value will be 
determined by scarcity, the national economy could be seriously 
impacted by individual State policy choices on emissions 
targets.
    Madam Chairman, I am certainly glad that the committee has 
decided to delay marking up this legislation. The more we dig 
into it, the more problems we find. The national interest is 
best accomplished through a transparent, coherent policy that 
clearly defines the rules of the game, allows for a cost 
effective system for emissions reductions, provides for 
regulatory certainty and that takes each State's capabilities 
and energy needs into account. This is no easy task, and much 
work will have to be done to craft a bill that meets those 
requirements.
    Thank you.

    [Additional material submitted for the record follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                                 [all]
                                 
                                 
                                 
</pre></body></html>
